<html>
<title> - SQUEEZED: CURRENT CHALLENGES FOR SMALL CITRUS OPERATIONS</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


 
                     SQUEEZED: CURRENT CHALLENGES FOR SMALL 
                                  CITRUS OPERATIONS

=======================================================================

                                HEARING

                               BEFORE THE

             SUBCOMMITTEE ON AGRICULTURE, ENERGY AND TRADE

                                 OF THE

                      COMMITTEE ON SMALL BUSINESS
                             UNITED STATES
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD
                             JUNE 11, 2015

                               _________


[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 



 
           Small Business Committee Document Number 114-015
              Available via the GPO Website: www.fdsys.gov
              
                               ___________
                               
                               
                  U.S. GOVERNMENT PUBLISHING OFFICE
95-079                WASHINGTON : 2015                  

_______________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="9bfcebf4dbf8eee8eff3fef7ebb5f8f4f6b5">[email&#160;protected]</a>  
           
           
           
           
           
                
                   
                   HOUSE COMMITTEE ON SMALL BUSINESS

                      STEVE CHABOT, Ohio, Chairman
                            STEVE KING, Iowa
                      BLAINE LUETKEMEYER, Missouri
                        RICHARD HANNA, New York
                         TIM HUELSKAMP, Kansas
                        TOM RICE, South Carolina
                         CHRIS GIBSON, New York
                          DAVE BRAT, Virginia
             AUMUA AMATA COLEMAN RADEWAGEN, American Samoa
                        STEVE KNIGHT, California
                        CARLOS CURBELO, Florida
                          MIKE BOST, Illinois
                         CRESENT HARDY, Nevada
               NYDIA VELAZQUEZ, New York, Ranking Member
                         YVETTE CLARK, New York
                          JUDY CHU, California
                        JANICE HAHN, California
                     DONALD PAYNE, JR., New Jersey
                          GRACE MENG, New York
                       BRENDA LAWRENCE, Michigan
                       ALMA ADAMS, North Carolina
                      SETH MOULTON, Massachusetts
                           MARK TAKAI, Hawaii

                   Kevin Fitzpatrick, Staff Director
            Stephen Dennis, Deputy Staff Director for Policy
            Jan Oliver, Deputy Staff Director for Operation
                      Barry Pineles, Chief Counsel
                  Michael Day, Minority Staff Director
                           
                           C O N T E N T S

                           OPENING STATEMENTS

                                                                   Page
Hon. Carlos Curbelo..............................................     1
Hon. Grace Meng..................................................     2

                               WITNESSES

Mr. Kevin Severns, Owner, Severns Farm, Sanger, CA, testifying on 
  behalf of California Citrus Manual.............................     4
Mr. N. Larry Black, Jr., General Manager, Peace River Packing 
  Company, Fort Meade, FL, testifying on behalf of Florida Citrus 
  Mutual.........................................................     6
Mr. Dale Murden, President, Texs Citrus Mutual, Mission, TX......     7
Dr. Michael Rogers, Interim Director and Associate Professor, 
  Citrus Research and Education Center, Institute of Food and 
  Agriculture Sciences, University of Florida, Lake Alfred, FL...     9

                                APPENDIX

Prepared Statements:
    Mr. Kevin Severns, Owner, Severns Farm, Sanger, CA, 
      testifying on behalf of California Citrus Mutual...........    22
    Mr. N. Larry Black, Jr., General Manager, Peace River Packing 
      Company, Fort Meade, FL, testifying on behalf of Florida 
      Citrus Mutual..............................................    32
    Mr. Dale Murden, President, Texas Citrus Mutual, Mission, TX.    35
    Dr. Michael Rogers, Interim Director and Associate Professor, 
      Citrus Research and Education Center, Institute of Food and 
      Agriculture Sciences, University of Florida, Lake Alfred, 
      FL.........................................................    39
Questions for the Record:
    None.
Answers for the Record:
    None.
Additional Material for the Record:
    None.


        SQUEEZED: CURRENT CHALLENGES FOR SMALL CITRUS OPERATIONS

                              ----------                              


                        THURSDAY, JUNE 11, 2015

                  House of Representatives,
               Committee on Small Business,
     Subcommittee on Agriculture, Energy and Trade,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 10:02 a.m., in 
Room 2360, Rayburn House Office Building, Hon. Carlos Curbelo 
[chairman of the Subcommittee] presiding.
    Present: Representatives Curbelo and Meng.
    Also Present: Representatives Knight and Lawrence.
    Chairman Curbelo. Good morning. I call this hearing to 
order.
    This is my first hearing as chairman of the Subcommittee on 
Agricultural, Energy and Trade, and I look forward to working 
with Ranking Member Meng on issues of concern to small 
businesses.
    The United States is one of the top procedures of citrus in 
the world. Florida, my home State, is the largest producing 
area, followed by California, Texas, and Arizona. Within these 
States, citrus is both economically and culturally significant. 
It fuels the economy, and for many growers and their families, 
it is a way of life passed down from one generation to another.
    Citrus is a valuable United States crop. For the 2013 2014 
season, its value was $3.39 billion, and a recent University of 
Florida study found that the total economic impact of the 
citrus industry in the State of Florida for fiscal year 2012/
2013 was $10.68 billion. However, this United States economic 
powerhouse is facing significant challenges. The acreage and 
production of citrus are down, particularly in Florida, which 
is ground zero for a deadly bacterial disease that destroys 
citrus trees.
    Huanglongbing, which is also referred to as HLB, or citrus 
greening, is a devastating citrus disease that has been found 
in Florida, Texas, and California. In addition, the insect that 
spreads HLB has been found in 15 States and United States 
territories. HLB, along with other current challenges, in 
particular the Mexican fruit fly in Texas, and the drought in 
California, are making it more difficult and costly to produce 
citrus. Faced with these challenges, small citrus growers, 
which comprise 90 percent of citrus farms and other small 
businesses in the citrus industry, are struggling to stay 
profitable and to stay in business.
    Today we will be hearing from witnesses from Florida, 
California, and Texas who will explain how the current 
challenges are affecting small citrus growers and other 
businesses within the citrus industries in their States. I want 
to thank all the witnesses for taking time away from their 
businesses and families, and for appearing before the Committee 
today.
    With that, I yield to the ranking member, Ms. Meng, for her 
opening statement.
    Ms. Meng. Good morning. I want to thank our Chairman 
Curbelo and his team for putting together such an important 
hearing. As a member from New York State, with, I am sure, a 
high consumption of citrus products, I am very excited to learn 
more about how the Federal Government can be of help towards 
our small businesses.
    Agricultural remains a critical part in our Nation's 
economy, supporting more than 16 million jobs nationwide. 
American farmers are the best at what they do when given the 
opportunity to compete on an even playing field. However, the 
challenges farmers face are not limited to factors under their 
control. Unpredictable weather conditions and stubborn pests 
and disease wreak significant impacts on our producers' bottom 
line.
    Many parts of the country are still suffering from 
persistent drought conditions. Pests and diseases are 
continuing to pose significant threats to plants and their 
respective industries, as we are witnessing with citrus 
greening. However, investments in agriculture research help 
mitigate these impacts, both environmentally and economically, 
and prepare producers for future adverse conditions. While the 
United States may not be the world's largest procedure of 
citrus, it plays a substantial role in producing citrus 
products sold domestically and abroad. Citrus exports in 2012 
alone totaled over $1 billion, and the value of the 2013 to 
2014 crop was estimated to be nearly $3.5 billion, proving the 
importance the industry plays in creating jobs and growing our 
Nation's economy.
    But U.S. orange production forecast is down slightly due to 
projected production declines in Florida and California. This 
trend is largely due to citrus greening, a devastating disease 
caused by the Asian Citrus Psyllid. To date, there is no 
permanent solution to this horrible infestation that is slowly 
spreading across America's citrus groves. The entire citrus 
industry has taken a major blow since the disease was first 
identified. It has caused a loss of millions of boxes of 
oranges and thousands of acres of abandoned and tainted groves.
    Citrus greening has taken a particularly hard toll on small 
citrus operations as they are more sensitive to the costs of 
the infestation. Such costs can include pesticides, 
quarantines, fertilizers, and replanting of trees. To make 
matters worse, those hardworking farmers face other challenges 
corresponding with citrus greening; droughts, freezes, 
hurricanes, port labor disputes, and other citrus pests.
    The barriers to operating their business have become so 
cumbersome and financially burdensome that many smaller 
operations are questioning the future of the citrus industry. 
In fact, some smaller operations are struggling with the 
decision to keep hope alive for the citrus operations or 
throwing in the towel and planting new crops or selling land to 
developers. These decisions are troubling to many besides just 
the growers, as the industry supports jobs in the packing, 
trade, and grocery sectors. Because citrus operations generate 
jobs not only for themselves but for different sectors of 
economy, addressing the challenges facing this industry will 
not only keep America producing jobs, but it will also continue 
to create jobs and gross domestic products in the future.
    Today's hearing will give us the opportunity to learn more 
about the citrus industry in general, and what the future holds 
for them as we combat pests, disease, and climate issues. 
Though this issue is one concerning many stakeholders from 
local counties to numerous Federal agencies, we must hear from 
the small businesses on the front line of the issue. And today, 
we will do just that in hopes of finding ways to assist them in 
preserving the future of a quintessential fruit and breakfast 
drink. We are here today to learn more about what the Federal 
Government is doing to assist your small citrus businesses and 
what more is required. In order to ensure the success of our 
self-employed, we must understand the challenges facing this 
industry.
    I thank all the witnesses for being here today, and I look 
forward to your comments.
    Thank you, Mr. Chairman, and I yield back.
    Chairman Curbelo. Thank you, Ms. Meng.
    If additional committee members have an opening statement 
prepared, I ask that they be submitted for the record.
    I would also like to take a moment to explain the timing 
lights for you. You will each have 5 minutes to deliver your 
testimony. The light will start out as green. When you have 1 
minute remaining, the light will turn yellow. And, finally, it 
will turn red at the end of your 5 minutes.
    I ask that you try to adhere to the time limit.
    Our first witness is Kevin Severns, a second-generation 
navel orange grower. He is the owner of Severns Farms, a 40-
acre citrus-growing operation in Sanger, California. Mr. 
Severns also serves as the general manager of the Orange Cove 
Sanger Citrus Association, a cooperative citrus packing house, 
and serves on the California Citrus Pest and Disease Prevention 
Committee. He is testifying on behalf of California Citrus 
Mutual, a trade association that represents California's citrus 
growers, and currently serves as the organization's chairman of 
the board.
    Mr. Severns, thank you for being here today.
    Next I am pleased to introduce a fellow Floridian, Larry 
Black. He is the general manager of Peace River Packing 
Company, a small citrus packing operation in Fort Meade, 
Florida, and a fifth-generation Florida citrus grower. Mr. 
Black is the current president of Florida Citrus Mutual, a 
trade association that represents the Florida citrus industry, 
and also serves on the board of the Citrus Research and 
Development Foundation. Previously he served as president of 
the Polk County Farm Bureau. He is testifying on behalf of 
Florida Citrus Mutual.
    Mr. Black, thank you very much for being here today.
    Our third witness is Dale Murden, the president of Texas 
Citrus Mutual, the grower association representing Texas citrus 
industry. He also owns and operates a cattle and citrus 
operation in the Lower Rio Grande Valley of Texas. This year, 
Mr. Murden became president of Texas Citrus Mutual. Previously 
he had managed Rio Farms, a unique nonprofit farming and 
agriculture operation for 25 years. Mr. Murden also currently 
serves as the executive director of Texas Citrus Pest and 
Disease Management Association and has a long history of 
serving the Texas agriculture industry.
    Mr. Murden, thank you very much for being here today.
    I now yield to the ranking member for the introduction of 
our final witness.
    Ms. Meng. It is my pleasure to introduce Dr. Michael 
Rogers, the interim center director and associate professor of 
entomology and nematology at the University of Florida's Citrus 
Research and Education Center. He is a preeminent scholar on 
citrus integrated pest management. He received his Ph.D. in 
entomology from the University of Kentucky, and his B.S. from 
Auburn University.
    Welcome, Dr. Rogers.
    Chairman Curbelo. We are pleased to have a distinguished 
panel of witnesses from the major citrus-producing States, and 
look forward to hearing from all of you.
    Mr. Severns, you may begin.

STATEMENTS OF KEVIN SEVERNS, OWNER, SEVERNS FARM, ON BEHALF OF 
  THE CALIFORNIA CITRUS MUTUAL; N. LARRY BLACK, JR., GENERAL 
MANAGER, PEACE RIVER PACKING COMPANY, ON BEHALF OF THE FLORIDA 
CITRUS MUTUAL; DALE MURDEN, PRESIDENT, TEXAS CITRUS MUTUAL; AND 
   MICHAEL ROGERS, INTERIM DIRECTOR AND ASSOCIATE PROFESSOR, 
  CITRUS RESEARCH AND EDUCATION CENTER, INSTITUTE OF FOOD AND 
          AGRICULTURAL SCIENCES, UNIVERSITY OF FLORIDA

                   STATEMENT OF KEVIN SEVERNS

    Mr. Severns. Chairman Curbelo and Ranking Member Meng, 
thank you for the opportunity to testify today on the 
challenges that small citrus growers such as myself are facing.
    Defining a small citrus grower is not easy. Years ago, a 
40-acre citrus grower could make a reasonably good living. 
Today it probably takes 300 acres or more to stay in business 
farming citrus. Fifty years ago, growers did not have to deal 
with issues like good agricultural practices, GAAP audits, in 
other words, use reports, employee safety training, farm 
equipment emission certifications, and such as that. Today it 
is just part of the normal operations. Outside help and 
consultation is required, and it is not free. Please consider 
that California supplies 85 percent of the United States' fresh 
citrus, and has done so for nearly 150 years.
    Today we have about 3,500 growers, about 100 packing 
houses, and probably 12,000 or more employees that work nearly 
year round. We sell citrus in 50 States and many countries 
worldwide. The major citrus-producing States represented here 
do what the other States cannot. We produce citrus fruits for 
the rest of the Nation and the world on a year-round basis. We 
must keep this vibrant industry healthy.
    Not very long ago, California had 285,000 total acres. That 
number is more like 270,000 today, with more scheduled to be 
bulldozed this summer. The number of small citrus growers is 
significantly declining in California. It would appear that the 
small-scale citrus growers, and in a parallel sense, all citrus 
growers, might have a place on their own endangered species 
list. We have to consider the possibility of no more U.S. 
citrus. We need to ask ourselves: Do we want a citrus industry? 
U.S.-grown citrus has a superb record as a healthy, safe, 
nutritious, and affordable product. Yet it could easily 
disappear from our store shelves. Invasive pests and diseases, 
drought, and misguided water policy, international trade 
issues, and the convergence of all of these have brought our 
industry into perilous times.
    In California, we have watched Florida's decline in 
production due to huanglongbing, or HLB. For a citrus tree, HLB 
is a death sentence. In California we have the bug, the Asian 
Citrus Psyllid, what we refer to as the ACP, that spreads HLB, 
but so far no HLB. The task before us is to keep the ACP away 
from potentially infectious trees, and also to remove those 
trees before HLB can gain a foothold.
    Through our industry-funded surveys, we found a single tree 
in southern California that tested positive for HLB. That tree 
was removed, and all citrus nearby continues to test negative 
for HLB. That tree had been grafted by a hobby gardener with 
illegally transported bud wood cut from an HLB-infected tree 
overseas. Such actions could easily destroy a $2.4 billion 
industry. And that is just in California.
    We have appealed to residential citrus tree owners to work 
with us in watching for ACP and the disease. Controlling the 
ACP has been a challenge in the Los Angeles Basin. Most 
backyards in the area have citrus trees growing in them. San 
Joaquin Valley and the northern citrus-producing counties have 
had to deal with occasional small populations of ACP detections 
in some citrus groves. Growers are aggressive about treating 
detections, but doing is expensive.
    Citrus trees can be infected with HLB for 2 or 3 years 
before beginning to decline. By quickly removing any tree that 
tests positive for HLB, we may buy time to give the industry 
researchers an opportunity to find a solution to the disease.
    In September of 2011, the California Citrus Pest and 
Disease Prevention Committee, CPDPC, was formed to implement 
statewide suppression and eradication efforts. For the program, 
all California growers are assessed for every 40-pound carton 
produced. Over the past 5-plus years, $15 million has been 
collected annually to pay for the work of the CPDPC. The 
California Department of Food and Agriculture performs 
regulatory work trapping, testing, and treatment programs 
across the State on our behalf.
    Jumping ahead to water, the drought and the water situation 
in California is beyond critical. While the lack of normal 
rainfall are disastrous, so are the misguided environmental 
policies affecting our State. Some growers are going into their 
second year of zero allocation of surface water. If available, 
the cost of water has gone from around $200 per acre foot to as 
much as $1,300 per acre foot. That is a 650 percent increase.
    I see I am out of time. I will say that all of these 
issues, in addition to others, are converging in order to make 
it very difficult for the small citrus grower to continue to 
survive.
    Thank you.
    Chairman Curbelo. Thank you very much, Mr. Severns.
    Mr. Black.

                  STATEMENT OF N. LARRY BLACK

    Mr. Black. Chairman Curbelo and Ranking Member Meng, good 
morning. I am Larry Black, and I appreciate the opportunity to 
speak to you on behalf of the 6,000 Florida citrus growers. I 
am current president of Florida Citrus Mutual, and also general 
manager of Peace River Packing Company, a family citrus 
business.
    Our family settled in the central Florida area and began 
growing citrus in the 1850s. Our company employs 185 
Floridians, and is the largest employer in the small community 
of Fort Meade.
    The citrus industry is a powerful economic engine 
contributing over $10 billion annually to the Florida's 
economy, and provides over 62,000 jobs. The Florida citrus 
industry covers over 515,000 acres, and is the largest 
agriculture crop produced in the State. The industry is rich in 
traditions, and truly a way of life for my family and many 
other multi-generational family farms around the State.
    At our industry's peak just 12 years ago, we produced over 
240 million boxes of oranges on just under 800,000 acres of 
groves. Today, the USDA forecasts we will harvest only 96.4 
million boxes of oranges; 60 percent less than our peak 
harvest. Some of the decrease in acreage is due to the 
development boom and a series of hurricanes of the last decade. 
The vast majority of production losses are due to 
huanglongbing, or known as HLB or citrus greening.
    HLB is a bacteria that attacks the vascular system of the 
tree, and is spread by an insect vector known as the Asian 
Citrus Psyllid. Neither HLB nor the Asian Citrus Psyllid are 
native to Florida, or even the United States. The psyllid was 
first detected in Florida in the late 1990s. HLB was first 
detected in Florida in 2005, and estimates indicate over 90 
percent of the trees in Florida are now infected. HLB weakens 
and eventually kills the trees. The lower productivity of the 
trees have forced growers to abandon over 130,000 acres of 
citrus groves. Growers are learning how to extend the 
productive life of the infected trees, but production costs 
have more than doubled due to HLB.
    Orange juice prices have increased for consumers because 
supplies are strained and the cost of production has 
skyrocketed. Higher prices and competition from other beverages 
has resulted in per capita orange juice consumption being 
reduced by 50 percent. I am confident that consumption trends 
will reverse as research delivers solutions that will increase 
yields of our groves and the per unit cost of production will 
decline.
    Growers knew early that HLB was a monumental threat to our 
industry, and a massive research effort began. Citrus growers 
have taxed themselves and have spent over $90 million over the 
last 9 years to fund research. The Florida State legislature 
has appropriated more than $20 million for the fight against 
HLB. The 2014 Farm bill authorized $125 million over 5 years 
for citrus research funding through a competitive grant 
process.
    On behalf of citrus growers across the country, thank you 
for recognizing the need for a long-term funding source for the 
research needed to solve the HLB crisis that threatens the 
citrus industries in Florida, California, and Texas. Growers 
are working together to coordinate sprays to control the 
psyllid that spreads HLB. Antimicrobials and heat therapy 
appear to be possible near-term solutions to improve the 
productivity and extend the life of our trees.
    Plant breeders are working to develop varieties of citrus 
and root stocks that are tolerant of HLB. It is apparent a 
massive replanting of the citrus industry is required in 
Florida. Economists estimate the Florida industry needs to 
plant 20 million trees over the next 10 years to reverse the 
decline and stabilize the Florida industry. Our company has 
replanted over 350,000 trees over the last 3 years using the 
latest production technologies available. I am confident we 
will bring these trees into production, and we will be rewarded 
for the risk we are taking. The USDA has authorized the Tree 
Assistance Program, or TAP, to aid growers with replanting 
efforts. The TAP program is a cost-share program that 
reimburses growers a portion of the tree cost.
    The citrus industry is a core part of America's 
agricultural heritage. 62,000 Floridians produce a nutritious 
product that is part of a healthy diet. The industry is 
comprised of small family farms and associated businesses. The 
industry also supports many associated businesses ranging from 
vehicle and farm equipment dealers, banks, insurance companies, 
et cetera. I am confident our industry will manage through the 
current crisis and emerge as even a stronger industry.
    Again, thank you for your support funding the much-needed 
research. Please consider incentives for growers to replant and 
other assistance to grow small businesses as they emerge from 
the crisis. Thank you.
    Chairman Curbelo. Thank you very much, Mr. Black.
    Mr. Murden, you are now recognized.

                    STATEMENT OF DALE MURDEN

    Mr. Murden. Thank you, Mr. Chairman and Ranking Member 
Meng.
    On behalf of the over 400 commercial citrus growers in 
Texas, I want to express my appreciation to you for convening 
this hearing today to learn more about the challenges facing 
the United States citrus industry and our many small family 
owned growers.
    My name is Dale Murden. My family and I currently grow 
citrus and raise cattle near my hometown in Harlingen, Texas. 
In addition to being president of Texas Citrus Mutual, I am 
also a current member of the board of directors of the Texas 
Farm Bureau. The Texas citrus industry is comprised of almost 
27,000 acres across a three-county area in the Lower Rio Grande 
Valley. Our growers produce more than nine million cartons of 
fresh grapefruit and oranges each year, and another 5 million 
cartons of juice fruit all valued at over $100 million.
    Texas is the third largest citrus-producing State behind 
California and Florida. The total business activity supporting 
Texas citrus production is valued at $200 million annually. I 
know this pales in comparison to my larger counterparts, but to 
my fellow growers, it is worth fighting for.
    Currently, the industry employs up to 3,000 workers in a 
normal producing year, which culminates with the harvesting 
period from October to May.
    My testimony today will focus on two critical and pressing 
issues facing growers in the Rio Grande Valley. I will discuss 
the potential economic devastation due to the invasion of the 
Mexican fruit fly from south of the border, as well as the 
rampant spread of huanglongbing, also known as HLB or citrus 
greening. What sets Texas apart from my colleagues in 
California and Florida is our proximity to Mexico and its 
porous border. In addition to invasive pests coming from the 
south, USDA has estimated that there are conservatively over a 
half million citrus trees in backyards and private homes 
valley-wide. And we all love to grow our lemon and lime trees 
and real proud we can do that, but these trees pose a very 
significant threat to the commercial industry, and when left 
untreated, provide a safe harbor for fruit flies and the Asian 
Citrus Psyllid.
    The Mexican fruit fly or MexFly is a fly originally found 
in parts of Central America that has now spread beyond the 
border into the Lower Rio Grande Valley of Texas. The MexFly is 
a problem for citrus fruits which are extremely susceptible to 
infestation. Economic losses result from direct damage caused 
by the larvae that feed on the fruit pulp. Since 1986, Texas 
has participated in a fruit fly control program headed by APHIS 
to eradicate the fruit fly from Texas and the Mexican State of 
Tamaulipas.
    In 2012, APHIS thought they had successfully eradicated the 
MexFly, but recently, due to continued violence along the 
border, aging USDA rearing facilities, and untreated backyard 
citrus trees, the MexFly has been found once again in our 
region. This year proved especially hard for one small grove 
operation in Brownsville after a Mexican fruit fly was found in 
a neighboring backyard tree. The discovery triggered a 
quarantine and the grower was no longer able to harvest his 
crop for the year, leaving thousands of dollars of inventory on 
the trees with no hope for harvest. The problem is now reaching 
crisis levels. Since January 2014, there have been fruit fly 
quarantine areas off and on in the entire citrus growing region 
of south Texas.
    Now, while the MexFly poses a real and immediate threat, 
the recent finds of HLB or citrus greening has growers of all 
sizes in south Texas extremely concerned. There is no known 
cure for this disease, and we have learned from our friends in 
Florida that this disease is deadly serious. Greening was first 
discovered in a Texas grove in January of 2012. Three and a 
half short years later, we have confirmed trees located the 
almost 100 groves valley-wide. With the extremely long latency 
period of this disease, it is really unclear how many more 
trees have already been infected. What this has done to growers 
in terms of dollars is hard to quantify. When it was first 
discovered in Texas, we removed not only the infected tree but 
several of the surrounding trees as well.
    Today, positive HLB finds have become so widespread that 
most growers have discontinued tree removal. As such, it has 
quickly become a numbers game and a point of diminishing 
returns that keeps spreading throughout the industry.
    In a desperate attempt to mitigate the effects of HLB, most 
growers have initiated psyllid spray programs to slow the 
spread of infestation until a cure can be found. This strategy 
is in addition to our regular care programs and has already 
increased our grove care expenses by almost $400 per acre.
    Federal investments in HLB research and ACP eradication 
programs are also very critical to the survivability of the 
citrus industry in the United States, and as such, we have 
requested full funding under two high priority citrus programs; 
the Citrus Health Response Program, and the Huanglongbing Mult-
Agency Coordination.
    I would like to again thank you for your attention today on 
these issues. In short, the United States citrus industry, as 
you know it, is in extreme trouble. We are fighting to preserve 
our very way of life and are doing everything in our power to 
prevent total eradication of an essential industry.
    Thanks again, Mr. Chairman, for holding this hearing, and 
we look forward to working with you in the future.
    Chairman Curbelo. Thank you, Mr. Murden.
    And now, Dr. Rogers, you are recognized.

                 STATEMENT OF MICHAEL E. ROGERS

    Mr. Rogers. Chairman Curbelo, Ranking Member Meng, and 
members of the Subcommittee, thank you for the opportunity to 
speak to you today about the impacts of citrus greening on 
Florida's citrus industry.
    My name is Michael Rogers, and I am an associate professor 
of entomology at the University of Florida where I serve as 
interim director of the Citrus Research and Education Center. 
And Citrus greening disease is caused by a bacterium that is 
spread tree to tree by an insect known as the Asian Citrus 
Psyllid. When a psyllid carrying the bacteria feeds on a citrus 
tree, it injects the disease-causing bacteria which destroys 
the vascular system, causing a prolonged and slow death of the 
tree. Long before the trees completely succumb to the disease, 
citrus fruit are reduced in size and quality, making them 
unusable for juice or as for fresh fruit. After a tree has been 
infected for several years, the trees can no longer hold the 
fruit on the tree, and most of the potentially harvestable 
fruit that growers have spend thousands of dollars per acre to 
grow, drop prematurely from the tree to the ground before it is 
ready to be picked.
    Since 2005, greening has spread to every grove in Florida, 
infecting most, if not all, of the fruit-bearing trees to date. 
As a result, the 2015 orange harvest is predicted to be 96.4 
million boxes, and this is down from 240 million boxes in 2003, 
and is the smallest Florida orange crop since 1966.
    The future is uncertain for the Florida citrus industry and 
the 62,000 jobs that it supports. While there are many 
potential research solutions being developed that hold promise, 
putting that ultimate answer in the hands of growers is still 
years away. If we had a citrus tree today that we knew for 
certain was resistant to this disease, it would take 2 to 3 
years to scale up commercial nursery production of that 
resistant tree for purchase by growers. Once a grower is able 
to actually plant that disease-resistant tree, it will take at 
least 4 years for those trees to begin producing a harvestable 
crop, and additional years beyond that time to recover the cost 
required to grow the tree up to that point. This is a really 
discouraging prospect for the small citrus grower who currently 
is just struggling to stay in business.
    However, there are exciting new potential solutions for 
living with this disease, at least in the short term. These 
include new citrus varieties that have increased tolerance to 
the disease, use of heat treatments to kill the bacteria in the 
plant, thus extending the fruit-bearing life of the tree, and 
promising bactericidal compounds still being worked on that can 
be sprayed on the trees to eliminate the bacteria in the tree.
    With a majority of the citrus trees in the field today 
nearing death, to stay in business, growers must continue to 
replant new trees in their groves to maintain continuity of 
production. The short-term solutions available will play an 
important role in helping growers do just that. However, with 
depleted financial reserves, most small growers are in 
desperate need of financial assistance just to stay in business 
another season.
    Citrus research programs are also being negatively affected 
by the reduction in fruit yields. The research funds provided 
by the self-imposed grower tax to the tune of $90 million over 
the past 10 years are starting to dry up with the fruit yields, 
thus threatening to impede the progress of the promising 
research that must be continued to provide solutions for this 
disease. Fortunately, the availability of new Federal research 
funds, specifically the USDA, SCRI, and MAC programs, are 
providing some support for research on citrus greening. And a 
very sincere thank you to those who helped provide this needed 
funding through the Farm bill.
    While these funds support some very promising research 
projects, there are still gaps in funding that exist for many 
promising areas of research previously funded by the citrus-
grower generated tax that are threatened to go unfunded in the 
future. Your financial support for further research is crucial 
for the future of citrus growers and the 62,000 jobs they 
support in Florida, but also throughout the rest of the country 
as well.
    Land grant universities in every State are dedicated to 
serving the public, and Federal research dollars are crucial 
for universities to continue their research to benefit economic 
development.
    I appreciate the opportunity to address the committee, and 
I also extend an invitation to any members who are interested, 
please contact me to arrange a visit to the CRAC where you can 
witness firsthand the effects of this disease and the research 
under way to develop solutions to this problem.
    That concludes my formal statement, and I am happy to 
answer any questions that you may have. Thank you.
    Chairman Curbelo. Thank you very much, Dr. Rogers.
    I now recognize myself for 5 minutes, and I thank you all 
for your testimony. Some of the statistics that you shared are 
staggering, and it is very important that we are having this 
hearing today to shine a light on what represents a major 
challenge for the States represented here today, but more 
importantly, for families that are trying to stay afloat.
    My first question, which is addressed to all of you, are 
you currently seeing or do you expect to see consolidation in 
the citrus industry as smaller growers sell or leave the 
industry due to the increased costs of production? This is a 
major concern for us in our committee because, of course, 
protecting small businesses and strengthening them is our goal 
here. Do any of you fear that we are going to see a lot of 
consolidation as a result of this crisis?
    Mr. Severns. Mr. Chairman, I would like to address that in 
saying that absolutely we do. In California, the price of 
acreage, or what acreage can bring in general, is probably at 
an all-time high, and when growers are facing many of the 
pressures that they are, first of all, currently our largest, 
crisis being our drought situation and the things associated 
with that, and on top of that, staring down the problems that 
could becoming as far as ACP infestations and HLB, in addition 
to some of the trade-related issues that are pressing on us, a 
small grower really has to take a look at that and see whether 
they want to continue to maintain production in such perilous 
times.
    So certainly we see it in California. We see those smaller 
growers just deciding to sell out. Some of the younger 
individuals are going to work for maybe some of the larger 
farming operations. You don't see a lot of young farmers going 
out and buying acreage. It is nearly impossible right now. So, 
certainly I think we will continue to see consolidation, unless 
some things change pretty radically in the near future.
    Chairman Curbelo. Thank you. Does anyone else want to speak 
to that?
    Mr. Black. Just briefly, I would like to add that we are 
seeing consolidation in Florida, there remains a role for the 
small grower. The small grower, like every citrus grower in 
Florida, is struggling but on a go-forward basis, I believe 
there is still a role for a small grower that is so important 
to the fabric and the culture of our citrus industry.
    Chairman Curbelo. Thank you. Another question: Are there 
ways that the USDA Citrus Health Response Program and Multi-
Agency Coordination Group could be improved? Can you help us 
evaluate how these programs have performed and give us some 
ideas as to how they can do better?
    Mr. Rogers. I will just make a couple of comments. First, 
we really appreciate the funding that we have received. And I 
was going to mention there are two Federal programs, the SCRI, 
which is providing direct research for greening through the 
Farm bill that is $125 million over a 5-year period; and then 
we have the MAC funds as well. And the difference between those 
two, the MAC funds are providing the ability for us to do 
research projects that provide more short-term answers that can 
be used more immediately by our growers in the field. And this 
type of funding is very important.
    As I mentioned in my testimony, growers are having to make 
decisions today about going out of business. Are they going to 
stay in business or are they going to give it up? And the funds 
from the MAC program are helping us quickly develop projects--
or programs or approaches that growers can use now. While the 
SCRI is more long-term funding, very important science through 
the SCRI program, but it is more long term in its goals. You 
know, it is looking more for the ultimate down-the-road answers 
to this problem. And so I don't know if that answers your 
question, but the MAC funding is very important for us.
    Chairman Curbelo. Mr. Black.
    Mr. Black. Chairman, I would also like to speak to the 
Citrus Health Response Program, or the CHRP funds. The CHRP 
program is a relatively old program that was developed to deal 
with another problem, citrus canker, and what is very unique 
about the CHRP program is it offers flexibility for each 
industry, Florida, California and Texas, to tailor the program 
that fits their needs.
    As you heard this morning, each of our industries are in a 
much different state as they battle HLB in their groves, and so 
the CHRP funding provides that flexibility for each State to 
fit their needs and be most efficient with those dollars.
    And also would like to echo Dr. Rogers' comments that the 
MAC funding is essential to fund short-term shovel-ready-type 
projects to get those into the growers' hands as quickly as 
possible.
    Chairman Curbelo. Thank you.
    My time has expired. I would like to recognize the ranking 
member for 5 minutes.
    Ms. Meng. This question is for anyone on the panel. As you 
know, the SBA size standard for a small farm is $750,000 in 
annual receipts, which can vary significantly between the type 
of farm, and even year based on inflation. These definitions 
are important because small businesses have additional 
resources allotted to help them succeed, and if a farm is not 
considered to be a small business but operates as one, that can 
significantly impact its ability to succeed.
    How does this definition help or hurt your industry, and is 
the current size standard an accurate reflection of the 
industry? Or if you had to create your own size standard, what 
would it be based on? Employees? Acreage? Receipts?
    Mr. Severns. Ranking Member Meng, I certainly don't mean to 
sound like I am evading that question, but it is very difficult 
to define. In terms of just a dollar amount, $750,000, I 
quickly did the math on that, and as I mentioned, 300 acres is 
more like a small grower as it stands right now. Years ago that 
was different. Years ago that was more like a 40-acre grower. 
Well, $750,000 is $2,500 an acre for that grower. If we're 
talking gross receipts, that doesn't even pay its farming 
costs. If we are talking about net overall receipts, that gets 
them a little bit closer.
    But as I mentioned, when you have situations like you have 
in California where either you have to engage in a battle with 
the ACP and/or on top of that, pay for water if you can get it, 
which was prior $200 per acre foot to now you could be paying 
well over $3,000 per acre just for water. So I'm not meaning to 
evade the question, but I think a dollar figure may not 
adequately address the issue.
    Mr. Murden. Ranking Member Meng, I've got an analogy about 
that. My grandfather made his living on 200 acres of farmland, 
raised three daughters, put them all through school. If I tried 
to do that today, I would probably starve to death. So things 
have just changed dramatically, and it is hard to put a number 
on it, but, you know, I wished I could do what my grandfather 
was able to do because I would rather just farm 200 acres than 
killing myself trying to do more, more, more, but it is just a 
different day and a different time, and costs keep increasing.
    Ms. Meng. Is there a better standard or measure that you 
think the Federal Government should use to more accurately 
reflect what determines a farm to be a small business or not?
    Mr. Black. Ranking Member Meng, I believe revenue is the 
easiest measure, but I do believe it needs to be increased. The 
$750,000 for the small business is too low.
    Ms. Meng. Thank you. Where do each of you see your industry 
in the next decade or so, especially considering the numerous 
challenges you face? What is the most pressing issue for small 
citrus operations, and what is the best way for us to assist 
your industry? For example, increased funding? Amending 
regulations? Trade policy? Tax breaks? What is your wish list?
    Mr. Murden. All of the above.
    Mr. Severns. I would agree with Mr. Murden. Certainly the 
trade issues that are before us are very important to 
California. We export a very high percentage of our crop, and 
export is certainly important to us, and it is a large source 
of our growers' revenue. So from a California perspective, we 
support TPA, and we would like to see that pass.
    As I look to the future of the California industry, I am 
always optimistic. I think any grower, any farmer is 
optimistic. That is how they live life. They make a bet on an 
entire year that they are going to be able to recover their 
costs and make some. So from a perspective of just who we are, 
we are optimistic. When we look at the challenges coming at us, 
whether it be HLB or ACP or water or any of the regulatory 
issues, as mentioned before, the regulatory issues specifically 
impinge on a small grower, because generally a larger grower 
hires people to take care of that. The smaller grower is his 
people. He takes care of those particular issues.
    Additionally, as far as the water issues are concerned, in 
California, if we don't resolve some of those very soon, if you 
can get water, you have seen a radical change in the amount of 
money that it takes to farm per acre.
    Ms. Meng. Thank you.
    Chairman Curbelo. Thank you, Ms. Meng.
    I would now liked to introduce and recognize my colleague 
from California, Mr. Knight.
    Mr. Knight. Thank you, Mr. Chair. I thank you for the 
indulgence. I don't sit on this subcommittee, but I did have a 
couple questions and mostly for Mr. Severns.
    I appreciate you doing what you do. It is difficult out 
there, and there is nothing like the water issue in California. 
I cannot impress upon that enough. I think that when I talk to 
my other colleagues in Congress, there is nothing that we talk 
about more. I tell them this is a national emergency. You don't 
understand what is happening in California, and I think that 
they will come about August of this year. You will see the 
impacts.
    But the zero allocation, I think that people don't get 
that. That you don't get any water unless you are pumping it 
from the aquifer or from your wells. That is how we are getting 
water to our farms in California right now. And the aquifers 
are being depleted in some areas. Some areas have plumes that 
they cannot be taken out of anymore, and it is getting more and 
more difficult.
    But my questions are more specific to what we are talking 
about today with the disease that is happening. I understand in 
Florida that it has taken over many of the areas. Has the 
California legislature taken this as an issue? Have they seen 
this as something that could strike the citrus industry in 
California, or are we waiting until this becomes a bigger 
problem?
    Mr. Severns. Absolutely not. A number of years ago Assembly 
Bill 281 created the Citrus Pest and Disease Prevention 
Committee in California. I happen to be secretary/treasure of 
that particular committee. We assess all of our growers about 
eight cents a carton. It brings in somewhere between $15 to $18 
million per year for us to fund this program that is involved 
in trapping and suppression, and in the case of finding HLB, 
eradication were that to happen. And so far, while we have had 
a spread of the psyllid in the southern California area, in the 
central California area we have been much more successful. And 
so far we have had one tree, that was discovered in southern 
California with HLB. It has since been removed. We continue to 
test the trees all around it and have had none of those trees 
come up positive.
    So there has been a response in California to this in a 
positive sense. Our industry works directly with CDFA and USDA 
in administering this program. We are fortunate enough to see 
what happened in Florida and received advice from them on being 
proactive in this, and that is a lot what generated or 
initiated our CPDPC program.
    Mr. Knight. Okay. And I guess my next question is to Dr. 
Rogers. Have you seen in the last, maybe couple of years that 
Florida has been going through this advancements that are now 
making it so we can extend a orchard to where we couldn't have 
4 years ago, or----
    Mr. Rogers. Yes. Absolutely. We have definitely made a lot 
of advancements. And we have learned more about this disease. 
We are learning how not only to better manage the psyllid and 
slow down the disease spread, but once the trees are infected, 
we are learning more about how that pathogen moves in the tree, 
how it affects the tree. And ultimately, we are looking at a 
lot of things like enhanced nutritional programs and better 
watering, the effects of soil pH and bicarbonates.
    Some of these issues come together, and when we address 
those issues, I am not saying we are going to resolve the 
disease or cure it, but we can maintain trees for a number of 
years longer than we could have in the past. Because if we 
weren't at that point now, most of the trees would be dead, and 
that doesn't mean that we have got a lot of time, because we 
really haven't. We have been living on borrowed time for quite 
a while now. And so--we are seeing small growers going out of 
business weekly.
    Mr. Knight. Okay. And, Mr. Murden, you brought up a 
subject, the Mexican fruit fly that we have been dealing with 
for many years. Tell me how that is affecting in Texas. Is it 
affecting the situation worse than it was 20 years ago? Have we 
kind of maintained this?
    Mr. Murden. I think it is probably worse, and there are 
lots of reasons and lots of blame to go around, I guess, if you 
will. You know, we have got a real aging rearing facility down 
there. It is like a 1940s Army barracks, Moore Field Air Base, 
that was back in World War II that is our rearing facility. It 
is in disrepair. We have got the issues along the border with 
Mexico. Our counterparts in Mexico can't go out and do the 
trapping, the scouting, or the releases because of the violence 
along the border. So we have got several issues going on. The 
door yard properties in our case is a huge, huge problem. They 
go untreated while we treat in the groves. You won't find the 
fruit fly in the grove, but due to the current quarantine 
restrictions, if the fly was found in the backyard, it is going 
to affect the adjacent grove from harvest.
    Mr. Knight. Thank you very much.
    Thank you, Mr. Chair. Thank you for bringing this forward 
and talking about this issue.
    Chairman Curbelo. Thank you, Mr. Knight.
    And Ms. Lawrence, you are now recognized for 5 minutes.
    Mrs. Lawrence. Thank you.
    Mr. Black, first, I want to commend you for your rich 
tradition of your family business and your contributions to the 
economy, and the jobs you provide in the community. Thank you.
    While citrus farms are not prominent in Michigan as in 
Florida and California, we do rank, I just want to brag, we do 
rank number one nationally in the production of blueberries and 
tart cherries. We have our claim to fame.
    In your testimony, you talk about the--changing the Tax 
Code to allow growers to immediately expense costs in the year 
that they take place. Mr. Black, can you elaborate on the need 
for the change and how it benefits citrus growers, and would 
the government experience any cost, and if so, would they be 
substantial? Can you comment on that, please?
    Mr. Black. Yes. Thank you, Ms. Lawrence. The proposal to 
change the Tax Code would offer an incentive for growers to 
plant trees to increase and accelerate the pace they are 
replanting. Currently growers have to capitalize the cost of 
the trees and the preproduction cost, all of the labor, spray, 
water, et cetera, for 4 years, and then at the end of 4 years, 
they place that asset in service and depreciate that asset for 
a period of 10 years.
    What our industry is proposing is similar to Section 179 
depreciation that allows for the immediate expensing of those 
assets when they are purchased. That is really a timing issue. 
The grower is allowed to deduct the same expenses as he would 
under the current model, but rather than over a 14-year period, 
it would be immediate expensing. So the cost would be the 
interest costs for the government to delay those tax receipts 
over the 14-year period as opposed to receiving them right 
away.
    Mrs. Lawrence. Would this change have an impact or this 
incentive, do you see it going across other types of fruit 
industries as well? Do you--are you advocating for this to be a 
change in the Code that would impact all growers?
    Mr. Black. No. The current legislation is solely for citrus 
trees across the United States, but, no, we do not propose 
expanding that initiative. In my opinion, the section 179 
depreciation allowance has been very effective to stimulate the 
economy and increase the capital spend by businesses.
    Mrs. Lawrence. Thank you.
    Any other members of the panel would like to comment on the 
Tax Code?
    My last question is, we talked about the fruit flies, and I 
think it was Mr. Murden commented on that. You talked about 
what you are currently doing to mitigate it. What are the 
costs? What would it cost to mitigate the fruit flies? And do 
you have--as far as the government, how can we partner with you 
in that?
    Mr. Murden. We actually already are. APHIS is a very strong 
partner in that, and it actually is kind of a three-pronged 
approach. The growers have an assessment that they kick into 
this eradication program and scouting program. Our Department 
of Agriculture does as well in Texas. And APHIS carries the 
lion's share. We have just got lots of problems and lots of 
needs. The biggest and foremost is that aging facility down 
there and trying to get it in a budget for USDA to re-do. I 
think the last estimate I heard to rebuild that facility is 
close to $30 million.
    Mrs. Lawrence. Okay. Well, thank you all so much.
    Chairman Curbelo. Thank you.
    Mrs. Lawrence. Yield back.
    Chairman Curbelo. Thank you, Ms. Lawrence.
    I recognize myself for 5 minutes.
    Mr. Severns, your comments on TPA are timely as it seems 
like the House will be considering this legislation tomorrow.
    Can you expound on your support for TPA? I think there is 
an assumption that most in the agriculture industry would be 
opposed. Could you comment a little more on why you are 
supportive? And if anyone else would like to comment, and maybe 
perhaps with differing views, you are welcome to do so as well.
    Mr. Severns. We export a very significant portion of our 
crop, and allowing that negotiation authority and being able to 
work these issues out on a timely basis are crucial to where we 
are even at this time in negotiations with different countries 
on export issues.
    I might mention that by virtue of the fact we do export the 
amount that we do, it is important that authority be extended, 
and in so doing, we are able to maintain those markets and 
maintain those negotiations and work through some of these 
issues on a timely basis, and if we don't have these crucial 
export markets, there is only a few other things that can 
happen, and one of those things is that fruit dumps back on the 
domestic market.
    Domestic consumption, while improving, has been relatively 
flat over the last number of years. So that export market, in 
addition to being an outlet other than the domestic market, 
also is a place where we can really excel. And it has been very 
important to the growers' overall return to be able to 
participate in those export markets.
    We deal primarily over in Southeast Asia, Japan, and Korea. 
Those countries are very important to us.
    Chairman Curbelo. Anyone else have any views on free trade 
that they may want to share whether specific to the current 
TPA----
    Mr. Murden. I agree with everything Kevin said, actually.
    I will put on one of my other farming hats right now. China 
is one of our largest markets. So I think it is very important.
    Mr. Black. I would like to add, trade is a very important 
part of our business, but also recognize that both HLB and the 
Asian Citrus Psyllid are invasive. They are not native to our 
State or our country. So as any part of a trade agreement, 
please consider port inspections, et cetera, to keep our 
domestic industries across all agriculture safe.
    Chairman Curbelo. Thank you for those comments. And, in 
fact, as I understand it, higher standards for agriculture are 
one of the key goals of the current TPA that we are 
considering.
    I also want to ask about the H-2A Visa Program. This is a 
program that allows certain American employers to bring foreign 
nationals to the United States for low skill temporary or 
seasonal agricultural jobs for which American workers are not 
available.
    Can you describe the extent to which you rely on H-2A 
workers to help harvest your fruit? And what challenges have 
you encountered in ensuring you have a sufficient labor force 
to do the work needed on a timely basis?
    Mr. Black. Chairman Curbelo, our business does not engage 
H-2A workers. We have been fortunate that we have been able to 
pull in our local labor pool and have not had to file a 
petition and secure H-2A workers. However, approximately 80 
percent of the Florida crop is harvested by H-2A workers. So it 
is very important to the Florida industry, and there are 
definitely changes in the H-2A program that would be welcome 
for all of agriculture to make that process easier for growers 
when they need to source workers to harvest their crops and 
other ag work.
    Mr. Severns. We in California tried the H-2A program. In 
the context that we did try it, it didn't work very well for 
us, to be very frank about it. I don't know that I would throw 
the baby out with the bath water, so the speak. I think there 
were some logistical and communication issues that made it very 
difficult. But at this time, we don't use any H-2A workers.
    I will say that having a sufficient labor force to harvest 
our crop in California is a very, very difficult issue right 
now, and looks like it could get more difficult.
    Chairman Curbelo. Thank you.
    Ranking member is recognized for 5 minutes.
    Ms. Meng. Emerging scientific consensuses hold that genetic 
engineering is required to defeat citrus greening as they can 
find no other way to combat it. They make the argument that 
most crops have been genetically modified in some way to reap 
the most desired fruit, vegetable, or green. In fact, many 
popular types of apples fit in this category.
    What are you hearing from small citrus growers as to their 
openness to this approach, and have you conducted any consumer 
research into this particular solution? And, Dr. Rogers, maybe 
what are some of the pros and cons of these methods?
    Mr. Rogers. Okay. First, to answer the question, have we 
actually surveyed growers for their willingness to plant a 
genetically modified crop; I don't have the information in 
front of me. There is a document that the University of Florida 
extension has put out that was a survey of growers on their 
willingness to adopt GMO technology. And the growers were 
overwhelming in support of doing that. So it was very clear 
cut.
    So to the questions--what was your second question? I am 
sorry.
    Ms. Meng. The pros and cons and what consumers may----
    Mr. Rogers. Pros and cons, okay.
    And I think when you look at the whole thing about 
genetically modified crops, people come in thinking of 
Frankenfoods or something like that. But there is a lack of 
education on what is going on, because when you look at a 
conventional plant-breeding program, you take two different 
plants, they cross them trying to get a superior trait, maybe 
it is a flavor, or a taste, or appearance that a consumer wants 
to buy. You don't control what gets crossed when you do those 
types of breeding programs.
    So there have been cases with potatoes and some other 
crops, where they have actually crossed them, and they have had 
products that were actually unhealthy for humans, and you can't 
control that. With genetic modification, you actually control 
the specific gene that you want to change, and nothing else 
gets changed. So you know exactly what has happened.
    And we can talk all day about some of the pros and cons, 
but there is definitely a lot more benefit, and there is really 
not any negative other than the public perception.
    But I do want to mention one other thing that is happening 
that is really interesting. We do a lot of work on genetic 
modification in Lake Alfred at the CREC. And our plant breeders 
are taking genes spores resistant to greening that had been 
identified to citrus and moving those now to commercial 
varieties that we want to grow. Because a lot of the resistance 
we have, we can call them a library of plants that the breeders 
have. They are not commercially suitable varieties, but they 
are moving genes from one citrus plant to another.
    But then they are also finding ways to turn off the plant's 
response to the disease. By just simply deleting a gene that 
allows the disease to be expressed, you can have the same 
effect as far as mitigating the disease. So you are actually 
not even adding anything to the plant; you are just taking 
something away. Those are probably more likely to gain 
regulatory approval and be something that we can do in the not-
too-distant future regulatory-wise. We have a lot of these 
types of projects in the field, looking at genetic-modified 
plants that are very promising. We have very promising results 
right now.
    Mr. Severns. Ms. Meng, I would like to make a comment on 
that. Two different things come to mind for me, and they are: 
trying to engage the public in a rational, intelligent 
conversation about the whole GMO issue is one. And, also, 
having an understanding that there is a very distinct 
possibility--and this isn't hyperbole; it is not an 
exaggeration--that if HLB continues unabated, we won't have any 
citrus in America. So if the question was asked, do you like 
citrus enough, what would you be willing to accept in order to 
continue to have it, and that doesn't necessarily mean it is a 
GMO-only solution, but I think that question does have to be 
asked, because that is a possibility.
    Ms. Meng. Okay. Thank you.
    I yield back.
    Chairman Curbelo. Thank you, Ms. Meng.
    Mr. Black, maybe you can help us bring this all home. You 
noted that while the citrus industry is comprised of family 
farms and associated businesses, it supports many other 
businesses. Can you explain how important a vibrant citrus 
industry is to Florida's economy, and particularly to small 
Florida towns, or maybe people watching this hearing today 
wondering why this Congress focused on this issue? Why is this 
important?
    Can you expound on--in the State of Florida, for example, 
why the citrus industry is so critical.
    Mr. Black. Thank you, Chairman Curbelo.
    Florida is a very diverse State. You fly into Miami and 
drive just a couple of hours to the small community of Fort 
Meade, where our business is located, you wouldn't think you 
were in the same State at all. Florida has a network of small 
communities. Fort Meade has approximately 5,000 residents. Our 
company is the largest employer, but we also support from the 
automobile dealership to the hardware store to the grocery 
store, where our employees shop, et cetera, et cetera. The 
domino effect, the multiplier effect of our industry is 
unbelievable in small communities where the other mainstay of 
the Florida economy, tourism, is just not present.
    Chairman Curbelo. Thank you.
    Ms. Lawrence, do you have any additional questions?
    Mrs. Lawrence. Yes, please.
    Chairman Curbelo. You are recognized for 5 minutes.
    Mrs. Lawrence. Thank you, Mr. Chairman.
    My question was a follow-up to--and I really am glad that 
the chair brought up the issue of the trade.
    My understanding is that while there are open doors for our 
country and your industry to export, where are you with the 
import issue?
    You know, absolutely, Mr. Black, the control and the 
regulation of the quality of the food that we receive is a 
very, very high priority. But with that being said, I am very 
much in tune to the auto industry, and I know that the--this 
bill, without controls of tariffs and other issues, it gives an 
advantage.
    Our current proposal gives advantage to the foreign 
companies where they can devalue the yen and do a lot of 
things.
    So let's talk about the--if we open the doors to the citrus 
market through the trade, how would that impact my United 
States costs, and your ability to maintain a certain level of 
profit in your industry? Has that been considered and 
discussed?
    Anyone can jump in on that.
    Mr. Black. Sure. Mrs. Lawrence, I will start.
    Brazil is Florida's largest competitor and the dominant 
force in the orange juice business.
    Mrs. Lawrence. Okay.
    Mr. Black. We have a tariff in place on imported orange 
juice that, to a degree, levels the playing field due to the 
labor cost differential, regulatory cost in our country that is 
not as prevalent in Brazil.
    So you make an excellent point that as trade negotiations 
ensue, that all industries be considered and that we have fair 
trade above everything else.
    Mrs. Lawrence. Mr. Severns, do you have anything?
    Mr. Severns. My understanding is that as trade promotion 
authority passes, that Congress still has the ability to vote 
on that particular deal, if I am understanding correctly, not 
necessarily each and every aspect of that.
    Certainly, we are concerned about what comes onto our 
shores right now, not just from a trade perspective, but from 
an invasive species perspective and that sort of thing.
    We currently do have offshore fruit coming in, and that 
does directly compete with the product that we have. And I 
guess inasmuch as we live in a global economy, that is not to 
be unexpected.
    Certainly, our perspective is going to be what we think is 
healthy and beneficial for the citrus industry. And in my 
comments, I don't mean to make particularly any other comment 
about another industry other than to simply say from the 
perspective of trade and the perspective of what we would be 
able to do through export, it would be an improvement of the 
situation for us, and that is why we support it.
    I would hope that because of the continued ability of 
Congress to approve or disapprove any certain trade agreement, 
that would still create a check and balance for the other 
industries as well. Thank you.
    Mrs. Lawrence. Dr. Rogers, or Mr. Murden, any comments on 
that?
    Mr. Murden. I think with any trade agreement, the devil's 
in the details. I understand free trade is not always fair 
trade. I have been a product of that down in the Mexican border 
for a long time. So it is up to y'all to trust but verify, so 
to speak. I do agree with your concerns and Kevin's as well on 
the invasive species and pests that can come across. So you 
have go to watch it. But the fact of the matter is, we grow 
more than we can eat, so we need to have the ability to get it 
out there.
    Mrs. Lawrence. Okay. That is a question that I really, as 
we are now debating and entertaining this, is the devil is in 
the details. And that, you know, just to say that we want trade 
and open up the gates, there is an obligation, responsibility 
of Congress to ensure that it is fair and that we do protect 
the quality that when we start talking about food that is 
coming into our country. So thank you very much.
    Mr. Severns. Thank you.
    Mrs. Lawrence. I yield back, sir.
    Chairman Curbelo. Thank you, Ms. Lawrence.
    I want to thank all the witnesses for taking time away from 
their businesses and families to participate in today's 
hearing. The United States citrus industry produces the fresh 
fruit and juice that nourish millions of consumers on a daily 
basis and are a vital part of our economy.
    For small growers, the increased costs of production due to 
HLB, the Mex line, the drought in California, pose significant 
challenges. Most alarming is the threat to citrus growers in 
Florida, California, Texas, and Arizona from HLB. The 
Subcommittee on Agriculture, Energy, and Trade will continue to 
highlight the problems that small agricultural operations are 
facing and examine policy solutions that allow farmers, their 
families, and employees to thrive and provide the fresh produce 
and other goods that Americans consume and value.
    I want to thank the ranking member for her cooperation in 
setting up this hearing. I want to thank you all, again. We are 
about small businesses in this committee, which means we are 
about families and the people who they employ.
    So we will continue doing everything we can to shine a 
light on this and to be an advocate, not only here in Congress, 
but more broadly, in the Federal Government to make sure we do 
right by our small businesses, the families they represent, and 
all the people they employ.
    I ask unanimous consent that members have five legislative 
days to submit statements and supporting materials for the 
record.
    Without objection, so ordered. This hearing is now 
adjourned.
    Mrs. Lawrence. Thank you.
    Mr. Black. Thank you.
    Mr. Severns. Thank you.
    [Whereupon, at 11:15 a.m., the subcommittee was adjourned.]
                            
                            
                            A P P E N D I X


                          Testimony of

                  Kevin Severns, Severns Farm

             On Behalf of California Citrus Mutual

  ``Squeezed: Current Challenges for Small Citrus Operations''

             United States House of Representatives

                  Committee on Small Business

         Subcommittee on Agriculture, Energy and Trade

                         Washington, DC

                         June 11, 2015

    Chairman Curbelo and Ranking Member Meng, thank you for the 
opportunity to testify today on the challenges that small 
citrus growers like me are facing.

    California's varied climactic conditions and unique 
topography create a perfect environment for a year round supply 
of oranges, lemons, tangerines and mandarin varieties. The 
Golden State's lemon crops from Imperial County near the 
southern border to Madera County in the north-central San 
Joaquin Valley produce fruit of unparalleled quality. 
California's inland valleys with their rich soils, hot summers 
and (usually) cool wet winters yield the best eating oranges in 
the world. All of this...and we have the global demand to prove 
it. I should also mention the fact that our State grows 50% of 
America's fresh produce and California supplies 85% of the 
United States' fresh citrus! Our citrus growing areas stretch 
from the very southern end of the state over 700 miles north 
into Glenn County in northern California. Our state is truly a 
``Garden of Eden'' that provides healthy, safe products to a 
hungry world.

    Years ago, small family farmers moving west to California 
launched a gold rush of another type...(And a sustainable one 
at that!)...a citrus industry that has provided our nation with 
``eating citrus'' for nearly 150 years! Today we have about 
3,500 growers, 100 packing houses and probably 12,000 or more 
employees that work in many cases year-round. We sell citrus in 
all 50 states and many (if not most) countries of the world. It 
would be a dangerous mistake for either the grower or the 
citizens of our great country to assume that a domestic citrus 
industry exists as a birthright and will just always be there 
without great effort to sustain it. The major citrus producing 
states represented here do what the other states cannot--that 
being the production of citrus fruits for the rest of the 
nation and the world on a year around basis!...This is no small 
reason to do everything possible to ensure that citrus 
production in these states remains vibrant.

    Defining a ``small citrus grower'' is a lot like explaining 
the size of a fish...it depends on what pond you are fishing 
out of! Years ago, a 40 acre citrus grower could make a 
reasonably good living. 50 years ago, a 40 acre grower, while 
doing much of the required work and tree care by his or her 
self and/or family members, probably lived in a modest home on 
the family acreage, drove a decent car and sent their kids to 
local colleges or universities. Often the young ones would come 
back to the farm and take over when mom and dad were less able 
to do the work in their later years. Today, the number of acres 
needed to accomplish something that might be more like 300 
acres. It would be impossible to farm that much acreage without 
some full time help. The grower of today has to contend with 
many issues in the normal course of operation that was not 
required 50 years ago. Food safety/Good Agricultural Practice 
logs and annual audits, Pesticide Use Reports, Ground Water 
Management Plans, Well Drilling Permits, Illness and Injury 
Prevention Programs, continuous updates of Material Safety Data 
Sheets, Employee Safety Training, Workers Comp and Liability 
Insurance Issues, Farm Equipment and Truck Emissions 
requirements and updates previously were not part of a growers 
day to day tasks. Nor were Highly Erodible Lands and Wetland 
requirements--and that's just a very partial list of what it 
takes to run an operation today! Not that any of these things 
are bad, per se, but they demand people, time and significant 
capital to deal with properly. It is pretty much impossible for 
a small citrus grower to handle all of these demands on their 
own. Outside help and consultation is nearly always required 
and none of it is free.

    So the options are get bigger, take an outside job or sell 
out. I, as many other growers do that own acreage of my size, 
work a ``regular'' job to, as we say, ``support my farming 
habit''. That is not to say that I don't love what I do, both 
as a farmer and a citrus packinghouse manager--I do--that's why 
I do it. But as with many like me, my children have seen the 
hard work, time and stress involved in maintaining their 
lifestyle. They have chosen other career paths. I really don't 
blame them. It is hard already, without the additional 
stressors to those already described. I'll go into more depth 
on the other challenges we face as I continue to lay out the 
narrative.

    At one time California boasted 285,000 total acres of 
citrus production. Primarily due to the drought conditions in 
the State, that number is now down to 270,000 with more 
scheduled to be bulldozed this summer. The small citrus grower 
is disappearing from the landscape of California's rich 
agriculture heritage. A ``young'' citrus grower is a very rare 
individual these days and if you do fine one, chances are they 
are working for a larger, corporate farming interest.

    I want to make sure that my message doesn't denigrate the 
``large'' citrus grower. This is neither my focus nor desire. 
Our Industry needs those larger operations with their efficient 
economies of scale. To be sure, it's the larger citrus growers 
that have forced our industry to modernize and supply the 
consuming public with varieties that they desire. The larger 
interests have been key in pushing innovation and research that 
has aided all citrus growers. Simply put, we need them, but I 
would suggest that a healthy citrus industry is also a diverse 
citrus industry. While the well-being of large scale citrus 
growers is vital to the health of our Industry, I would also 
say that the health of the smaller scale operators is just as 
important.

    Moving forward through this narrative I hope to illustrate 
the additional ``stressors''--beyond what has already been 
described. Hopefully a clearer picture will emerge as to why 
many small family-based operations either have, or are 
considering ``selling out'' while properly values in California 
are at inexplicably high prices per acre. If at the end of this 
presentation you understand why younger owner/operators are 
becoming a rare find and why small scale citrus growers (and, 
in a parallel sense, all citrus growers) ought to be considered 
for the Endanger Species List then I will consider the honor of 
being invited to address this Committee a success.

                      No more U.S. Citrus?

    In fact, it seems entirely appropriate to ask ourselves: 
``Do we want a domestic citrus industry?'' Are we OK with 
potentially sourcing citrus fruits (or other produce 
commodities) from distant shores? Do we realize that U.S. grown 
citrus has a flawless record as a healthy, safe, nutritious and 
affordable product yet could very easily disappear from our 
store shelves? This isn't just hyperbole. If we continue on our 
current trajectory, it is very likely that this could happen in 
the not-so-distant future! Invasive pests and diseases, 
drought, misguided water policy, 40 years of inaction with 
water infrastructure (as the population in the state doubled in 
California), international trade issues and the interaction of 
all of the above have caused our great industry ``ship'' to 
drift perilously close to being dashed to pieces on the rocks.

    We in California see the decline in production in Florida 
and the other south-eastern citrus producing states. We share 
the desperation of the Florida and Texas citrus farmer as 
Huanglongbing or HLB, a disease that kills any citrus tree it 
infects, ravages their groves! We see our future in them and 
realize that if a solution is not found soon we will all be 
done producing citrus. This disease does not discriminate 
between large and small growers. Other stressors we will 
discuss later will likely create some distinct disadvantages 
for the smaller producer, but the potential for all of us 
suffering great loss is high. In California, we have the bug, 
the Asian Citrus Psyllid (what I will refer to as the ACP), 
that spreads the disease and know that the probability is high 
that we will eventually find some ``hot'' (or HLB infected) 
trees out there. The task before us is to keep the ACP away 
from any potentially infectious trees and also to find those 
infected trees before the ACPs do and remove them before HLB 
can gain a foothold.

    We were fortunate enough to find a lone tree, in Southern 
California that tested positive for the disease after a scout 
saw its symptoms. That tree was removed and a few years later 
we continue to test nearby trees for the disease, thankfully 
with negative results so far but we are not so naive to think 
that's the only one. That tree was grafted with bud wood from 
an HLB infected tree in Southeast Asia that was illegally 
transported buy a hobby gardener. Chances are, this individual 
did not know that he was doing anything wrong or dangerous. But 
as is so often the case, one small spark had (and continues to 
have) the potential to wipe out an entire forest of citrus 
production, a $2.4 billion dollar industry in California. 
Again, any assumption that I am exaggerating should be fact 
checked with just about any Florida citrus grower! They are the 
unfortunate voice of experience that our California Citrus 
Industry listened to and heeded just before the first ACPs were 
found in California.

    The warning was clear: Control the bug, keep it away from 
diseased trees and you'll stem the spread of the disease. 
Florida growers were more than willing to tell us their 
stories, what they did and didn't do--and what worked and what 
didn't. They told us of the mistakes they made in not 
controlling the ACP. At the time, little was known about the 
latent nature of the disease. A tree can be infected for two or 
three years before it begins to decline and in fact can test 
negative for the disease until just before it begins to show 
symptoms. Florida growers told us that they knew the ACP was 
spreading but they weren't seeing the disease--until it was too 
late. When evidence of the actual HLB disease began to show up 
in Florida, despite an aggressive infected tree removal effort, 
it was soon evident that Florida growers were not going to be 
able to keep ahead of it. Florida growers had been hit by 
multiple tree damaging hurricanes, Citrus Cancer Disease and 
simply, when the ACP showed up, they had lost the resolve to 
fight a pest that wasn't yet causing a problem that was 
evident.

    Now Florida's citrus production is in free-fall. If some 
type of cultural, scientific (or combination thereof) solution 
is not found soon, Florida's Industry will cease to exist as we 
know it. They have already suffered critical damage and even 
now, even if a solution is found soon, Florida, as a citrus 
producing state will never be the same. Texas is also well down 
the same road as the disease has now jumped the southern border 
and has begun to spread north through their production areas. 
California, again, has had the unfortunate advantage of 
observing these situations unfold and we have done our level 
best to heed the warnings and take a very aggressive, proactive 
approach to beating back the bug that carries the disease and 
quickly remove any tree that tests positive for the disease. 
All of that said, we realize that we are just trying to buy 
time--time that whether by providence or science (I would say 
that both are the same) gives us opportunities to find a 
solution to the disease itself.

    In September of 2011, California state legislation was 
passed that created a new industry Committee tasked with 
vetting and implementing a robust statewide trapping, testing, 
suppression and eradication effort. The Committee was to be 
funded by every commercial citrus producer in California. All 
commercial growers in California assess themselves (currently) 
$00.08 cents for every 40 pound carton equivalent of citrus 
produced. Over the past five plus (5+) years, California 
Growers have self-funded an effort that has collected about $15 
million annually to pay for the efforts of the California 
Citrus Pest and Disease Prevention Program--ad it's oversight 
committee, the California Citrus Pest and Disease Prevention 
Committee or CPDPC. We in California like to refer to it as the 
AB 281 Committee, because the passage of California State 
Assembly Bill 281 is what brought the program into existence. A 
broad range of Industry members sit on the Committee, all for 
ZERO compensation and I might add with no small investment of 
time. I have the honor and privilege of serving the Executive 
Committee of that Board as Secretary/Treasurer.

    That is not to say that the AB 281 Committee works alone. 
The California Department of Food and Agriculture administers 
the program and executes regulatory, ACP trapping, disease 
testing and residential treatment programs across the State. 
The United States Department of Agriculture (USDA) partners 
with us through the Citrus Health Response Program (CHRP) and 
the USDA's Animal Plant Health Inspection Service's Multi 
Agency Coordination group headed by Dr. Mary Palm. All told, 
the CPDPC is tasked with overseeing a $25 million per year 
effort that also includes a promising beneficial insect (or 
parasitic wasp) program. The CPDPC is also aided by the 
California Citrus Research Board and the many research projects 
feverishly looking for new ways to detect the disease earlier, 
destroy the bug, destroy the disease in the tree (without 
destroying the host tree), finding disease resistant trees or 
rootstocks, and finding a better, more effective beneficial 
parasitic insect to slow the spread of the disease-carrying 
Asian Citrus Psyllid. The Citrus Research Board has been a 
longstanding effort of the California Citrus Industry and is 
funded by a separate grower assessment that collects another 
$00.03 per carton from California Citrus Production.

    At this point I would like to take a brief moment to urge 
continued support of the Citrus Health Response Program 
administered by the USDA's Animal and Plant Health Inspection 
Service. CHRP involves all of the citrus producing states and 
has as its stated goal ``to sustain the United States' citrus 
industry, to maintain grower's continued access to export 
markets, and to safeguard the other citrus growing states 
against a variety of citrus diseases and pests. This is a 
collaborative effort involving growers, Federal and State 
regulatory personnel and researchers.''

    So far we in California have been able to hold the battle 
lines against the disease. We have appealed to residential 
citrus tree owners to work with us in monitoring their trees 
for the ACP and the HLB disease. At this particular moment in 
time, we have been successful against HLB disease. Controlling 
the Asian Citrus Psyllid has proven to be much more of a 
challenge with nearly all backyards in the Los Angeles basin 
having at least one citrus tree growing in them. The area is 
currently a hotbed of ACP infestations but subsequent 
treatments of those outbreaks appear to have stemmed any 
additional HLB discoveries--but we cannot let our guard down! 
The San Joaquin Valley and the northern citrus producing 
counties have had to deal with occasional, small ACP detections 
(in terms of numbers) in some residential and commercial 
citrus. Quarantines, while costly and inconvenient to deal with 
have become something the Industry has learned to manage 
through. Growers are aggressive about treating local detections 
by both conventional and organic means--but doing so is 
expensive. So far-so good, as far as ACP in the San Joaquin 
Valley, but there are some seemingly unrelated threats that 
have significant potential to converge and make victory in the 
war to survive much less promising.

    Drought and Water Policy. ``Extreme'' fails to describe the 
drought and water situation in California. I say drought and 
water because some of the issues are simply a matter of a lack 
of normal rainfall, others are the result of misguided (and an 
absence of) sound water policies in California. The area I 
serve as General Manager of Orange Cove-Sanger Citrus 
Association receives surface water primarily from the Friant-
Kern Canal which in turn has water originating from the San 
Joaquin River. We are going into our second year of ``zero 
allocation'' of water from Friant. What little water that has 
been acquired by local growers has been the result of other 
users that have fallowed land and/or given up water that they 
have a right to for significant compensation. The Orange Cove-
Sanger Citrus Association is a microcosm of the California 
Citrus Industry, particularly along the eastside of the San 
Joaquin Valley. The cost of water has gone from around $200.00 
per acre/foot just a few years ago to as much as $1,300.00 per 
acre/foot today. The average is probably around $1,000.00 per 
acre/foot. Generally, citrus trees need about 3 acre/feet per 
year. Doing the math, the grower paying $1,300.00 per acre/foot 
has had a 650% increase in water cost, if it's made available!

    This is a bad deal for everybody, from the grower to the 
consumer. It is particularly hard on the small family farm that 
may not be capitalized as well or may not have the resources to 
seek out solutions such as water transfers, etc. As bad as the 
cost of water is, it is really immaterial if a grower is forced 
to remove or abandon their grove because surface or ground 
water is simply not available. We have a number of growers 
within our Association that are dealing with this very 
situation, and again, that is to illustrate what is happening 
in an industry of which we are a 1.5% portion! Unlike some row-
crops, we do not simply ``plow-under'' one season's crop and 
replant when (and if) the water returns. Citrus trees can take 
from 3 to 5 years to yield any viable production and 7 to 9 
years before they have paid back their own cost of development 
and become profitable!

    It would be sad enough if all this was simply a result of 
the lack of rainfall but it is not. California's water system 
in its current condition was designed to handle half the 
population that now occupies the state. If we had kept to the 
task of continuing future water projects we would be in a much 
better position to provide water for people, farms, jobs and 
fish! While California recently passed a water bond that is a 
very positive step in the right direction, it will do little to 
fix the current situation. Contrary to recent media reports our 
water woes are not the result of ``Big Ag's'' overuse of water 
but rather (in addition to the drought) the creation and 
aggravation of an already difficult problem by interpreting the 
Endangered Species Act in a way that is completely unbalanced. 
Restoring a salmon fishery might be a worthwhile endeavor if it 
hadn't been attempted in the midst of an historic drought. If 
the reservoirs and canal systems that were once a part of a 
grand, visionary plan that California's lenders of years ago 
had conceived had been developed, might we have enough water to 
carry our cities, farms and fisheries through our current dry 
cycle? Nature has created the current crisis but neglect and 
unbalanced environmental policies have made it a true disaster! 
The way the Endangered Species Act is currently being 
implemented has, as many farmers would attest, put many a 
family farmer in the category of endangered. If we don't find a 
more balanced approach to the ESA, not only will fish be 
endangered, but many smaller family citrus farms will become 
extinct!

    Earlier in this presentation, I suggested that many of our 
current challenges to the continued existence of the California 
Citrus Industry are interrelated. As an example, take a grower 
who has lost their water. The grove simply dries up. It can 
take a citrus tree years to fully succumb to a lack of water. 
From an economic perspective, that tree is essentially dead 
from a production standpoint after a partial summer of no 
water. If it does set a crop, the fruit will be unmarketable 
because of poor taste, lack of juice, small size and softness. 
It may still have a few leaves and even push out some new 
growth if a (currently rare) rain event occurs. Those little, 
green glimmers of hope we call leaves have a dark side. First 
of all, citrus growers don't get paid for leaves but even more 
chilling is the realization that new leaf growth is a prime 
attractant for insect pests, specifically the Asian Citrus 
Psyllid! When a grower has lost his very source of revenue, how 
can that individual be forced to spend money he or she doesn't 
have to kill a pest in a grove that will never see viable 
production again? Florida producers are all too familiar with 
the harm that comes from an abandoned grove, abandoned by all 
but the Asian Citrus Psyllid and the dreaded HLB disease. 
Abandoned groves were a very significant reason for the spread 
of HLB in Florida, and we already see the economic realities of 
a lack of water causing some small and medium sized growers to 
just cease to farming some groves in California!

    Despite the daunting issues that faced us, most citrus 
growers did well during the 2013-14 production season. A 
manageable volume of fruit, good eating quality and excellent 
export demand made for some outstanding net per-acre returns. 
Some of the trade issues that had plagued us were seemingly 
resolved and behind us, and there was money to pay for high-
priced water! 2014-15 started off with the same promise. The 
maturity of the crop was early and initial demand overseas and 
domestically was excellent. In mid-December of last year we 
began to feel the impact of a slowdown at the west coast ports 
that were a result of a dispute between the Ports and Union 
that represented port workers. The slowdown came to a boil in 
January and February, which just happened to be two of our peak 
shipping months for exporting fresh citrus to China, Hong Kong, 
Japan, South Korea, Malaysia, Singapore, etc. If there was a 
container available, there was no guarantee that the fruit that 
was shipped wouldn't wind up just sitting in the port container 
yard or on a partially loaded ship waiting to be fully stacked 
with containers before sailing. What normally was a 16 to 234 
day voyage from shipping to the receiving port became as many 
as 60 days. Many loads arrived with very heavy decay losses. 
(Our Industry continues to work through the arrival claims)

    As export shipments dwindled to one-quarter to one-third of 
what was normal for that time of the season, the domestic 
market was impinged upon by the extra packed fruit. Consumption 
of fresh citrus in the U.S., while improving, has remained 
relatively flat on average over the last decade or so. All that 
can give way is the price and product movement, and it did. 
Because of the resulting oversupply and export claims, we 
expect net grower revenue from the shipper to be on average 
one-third to one-half of last season's results. Just with 
Orange Cove-Sanger Citrus Association growers, I estimate a 
reduction in revenue of 2.4 million dollars, directly 
attributable to the slowdown at the west coast ports.

    Again, there is an unfortunate interrelation with effects 
of the slowdown and the water situation. Water, if it is 
available, is similar in price to last season, and in some 
cases more expensive! In any case, there is less water 
available than last season. Some, larger operations may be able 
to move water and spread the cost (it's still not good for 
them, either), but the smaller citrus producer will be hard 
pressed to live within the means that the current season's 
returns will provide. In some cases the bulldozers are moving, 
in other cases citrus farmers are simply hoping against hope 
that things will turn out better than anticipated.

    Some of our key citrus markets are overseas. By virtue of 
the fact that many of the countries that we ship to are also 
fruit and citrus producing countries, they seek access to our 
markets as well and given their cost of production, it might 
seem like a pretty good deal for the American consumer. In some 
cases, in order to force the issue, some of our ``trading 
partners'' have put up some roadblocks, or at least detours in 
our trading paths. One country that we have shipped to for 
years excluded California Citrus for a time, and then after 
imposing a very specific protocol and program, California fruit 
was allowed back in. Recently after some shippers had fruit 
arrive with the fruit condition that initially caused the 
exclusion, an entire Central Valley county (shippers and 
growers) were again excluded from the program and will have to 
re-qualify through pre and post harvest handling treatment 
protocol procedures and inspections of the fruit. Many of the 
shippers involved in the secondary exclusion were also victims 
of the port slow down, which no doubt exacerbated the problem. 
Again, the dominos of cause and effect falling and the grower 
suffers the loss. In a different case and a different country 
(again, a destination that we have again shipped to for years 
without incident) discovered a pest prompting an expansion of 
pre and post harvest requirements in order to continue shipping 
to that specific destination. Certainly, any country has a 
right to (as we do) exclude pests from their own shores. It 
must be said however that keeping up with all of the differing 
protocols and requirements have become very burdensome and 
expensive. Often, the large scale grower has ``people'' that 
handle all of this. The small, individual farmer is his or her 
``people''.

    After hearing all of this it would not be unreasonable to 
ask the question: ``Why would anybody want to continue farming 
their small operations when they could sell out, take the money 
and enjoy life?'' My wife and I ask ourselves that question 
often, and we know we're in fine company. Candidly, the same 
could be asked of many of the larger scale operators. Many have 
exercised the exit option. If the current trends, threats and 
challenges go unanswered and unabated, many more will do the 
same. This would be a tragedy that we shouldn't allow! Less 
than two percent of the population provides food and fiber for 
the other 98 percent of the nation. How many more percentage 
points can we afford to lose?

    What can be done for us? How can this Committee help? 
Farmers by nature are do-it-yourselfers. Specifically, the 
California Citrus Grower is not interested in a handout and in 
fact loath the thought of taking something that they were not 
allowed to produce from the miracle that happens with a new 
crop every spring and their own hard work. We would ask you to 
support USDA programs that support the nation's citrus growers, 
such as the Citrus Health Response Program (CHRP) and Multi-
Agency Coordination (MAC) group that promote research and drive 
real-world solutions to insidious diseases like HLB. Please 
work to protect growers that seek to export fruit into overseas 
markets from disasters that occurred as a result of disputes 
like the West Coast Port Slowdown. (Possibly some tax relief 
for growers of perishable commodities that were damaged by the 
afer-effects of the slowdown?)

    We ask for your support of Trade Promotion Authority. 
Without it, critical negotiations with some of our key export 
markets may well stall. My understanding is that on average, 
U.S. citrus exports to the countries included in the Trans-
Pacific Partnership can currently face tariffs as high as 40%! 
Given that 35% of California's citrus crop is exported around 
the world, access to these markets is vital to us! Please 
create and carry out policies that allow a more practical and 
balanced application of the Endangered Species Act as it 
relates to federal water allocations in California. We need 
legislation that will re-initiate California's development and 
expansion of its water infrastructure. Relief from burdensome 
and redundant regulation and reporting also could do much to 
stimulate the well-being of the small to medium-sized citrus 
producer. Obviously, while some are, not all of these issues 
are within the purview of this Committee. That said, I'm sure 
the Committee Members understand the interaction of all of 
these stress points. Whether on this Committee, on another 
Committee or on other legislation, we, the California Citrus 
Industry, would ask that you consider these factors when 
contemplating legislation, relief efforts and the cause, 
effect, short and long-term consequences of such work.

    Finally, I should comment on why do we do it? (Aside from 
insanity!) We love it. Many of us sense that it we are doing 
what we were created to do. Being connected to the land and 
producing safe, nutritious and great tasting citrus fruit for a 
hungry world is a privilege. That's why we do what we do!

    Thank you for the Honor and Privilege of addressing this 
Committee on behalf of the ``average'' California Citrus Grower 
and the Industry we work within.

    Respectfully:

    Kevin Severns
                          N. Larry Black, Jr.


                           Testimony for the


       U.S. House of Representatives Committee on Small Business


                             June 11, 2015


                  Challenges for Small Florida Growers


    Chairman Curbelo and Ranking Member Meng, Good morning, I 
am Larry Black and I appreciate the opportunity to speak on 
behalf of the 6,000 Florida Citrus Growers. I am the current 
President of Florida Citrus Mutual and General Manager of Peace 
River Packing Company. My family settled in central Florida and 
began growing citrus in the 1850s. Our company employs 185 
Floridians and is the largest employer in the small community 
of Fort Meade.

    The citrus industry is a powerful economic engine 
contributing $10 billion annually to the Florida's economy and 
provides 62,000 jobs. The Florida citrus industry covers 
515,000 acres and is the largest agriculture crop produced in 
the state.

    The industry is rich in traditions and is truly a way of 
life for my family and many other multi-generational family 
farms around the state.

    At our industry's peak, just 12 years ago, we produced over 
240 million boxes of oranges on just under 800,000 acres of 
groves. Today, the USDA forecasts we will harvest only 96.4 
million boxes of oranges, 60% less than our peak harvest.

    Some of the decrease in acreage is due to the development 
boom and a series of hurricanes in the last decade. The vast 
majority of the production losses are due to Huanglongbing, 
known as HLB or citrus greening. HLB is a bacteria that attacks 
the vascular system of the tree that is spread by an insect 
vector known as the Asian Citrus Psyllid. Neither HLB nor the 
Asian Citrus Psyllid are native to Florida or the United 
States. The psyllid was first detected in Florida in the late 
1990's. HLB was first detected in Florida in 2005 and estimates 
indicate over 90% of the trees in Florida are now infected.

    HLB weakens and eventually kills citrus trees. The lower 
productivity of the trees has forced growers to abandon over 
130,000 acres of citrus groves. Growers are learning how to 
extend the productive life of the infected trees, but 
production costs have more than doubled due to HLB.

    Orange juice prices have increased for consumers because 
supplies are strained and the cost of production has 
skyrocketed. Higher prices and competition from other beverages 
has resulted in U.S. per capita OJ consumption being reduced by 
50%. I am confident that consumption trends will reverse as 
research delivers solutions that will increase yields on our 
groves and the per-unit cost of production declines.

    Growers knew early that HLB was a monumental threat to our 
industry and a massive research effort began. Citrus growers 
have taxed themselves and have spent over $90 million over the 
past 9 years to fund research. The Florida State Legislature 
has appropriated more than $20 million for the fight against 
HLB. The 2015 Farm Bill authorized $125 million over five years 
in citrus research funding through a competitive grant process. 
On behalf of citrus growers across the country, thank you for 
recognizing the need for a long term funding source for the 
research needed to solve the HLB crisis that threatens the 
citrus industries in Florida, California, and Texas.

    Growers are working together to coordinate sprays to 
control the psyllid that spreads HLB. Antimicrobials and heat 
therapy appear to be possible near term solutions to improve 
the productivity and extend the life of our trees. Plant 
breeders are working to develop varieties of citrus and 
rootstocks that are tolerant of HLB.

    It is apparent a massive replanting of the citrus industry 
is required in Florida. Economists estimate the Florida 
industry needs to plant 20 million trees over the next 10 years 
to reverse the decline and stabilize the Florida industry. Our 
company has replanted over 350,000 trees over the last three 
years using the latest technologies available. I am confident 
we will bring these into production and will be rewarded for 
the risk we are taking.

    The USDA has authorized the Tree Assistance Program, or 
TAP, to aid small growers with replanting efforts. The TAP 
program is a cost share program that reimburses a portion of 
the tree removal and replanting costs for trees lost to 
disease. Two of the major brands that market Florida orange 
juice have developed incentive programs to assist growers as 
they replant.

    Florida Citrus Mutual is working with our legislative 
delegation to look at possible changes to the federal tax code 
that will attract capital to our industry and aid growers with 
their replanting efforts.

    Under present tax law, citrus growers are required to 
capitalize the costs of developing a citrus grove for four 
years, including the year trees are planted. After the trees, 
labor, fertilizer, spray, and other costs incurred are 
capitalized for this four years pre-productive period, the new 
grove is depreciated over a ten year period.

    Florida Citrus Mutual proposes to change the tax code to 
allow growers to immediately expense the grove development and 
acquisition costs in the year the costs are incurred. The 
proposal would sunset the tax code changes after ten years. The 
change would provide an incentive to growers with minimal costs 
to government.

    The citrus industry is a core part of America's 
agricultural heritage. 62,000 Floridians produce a nutritious 
product that is part of a healthy diet. The industry is 
comprised of small family farms and associated businesses. The 
industry also supports many associated businesses, ranging from 
vehicle and farm equipment dealers, banks, insurance companies, 
etc. Our industry has experienced challenges before, most 
weather related. I am confident our industry will manage 
through the current crisis and emerge as an even stronger 
industry. Again, thank you for your support funding the much 
needed research. Please consider incentives for growers to 
replant and other assistance to growing small businesses as 
they emerge from this crisis.

    Thank you.
                          Testimony of

                          Dale Murden

                           President

                      Texas Citrus Mutual

             United States House of Representatives

                  Committee on Small Business

         Subcommittee on Agriculture, Energy and Trade

                        Washington, D.C.

                         June 11, 2015

    Thank you, Mr. Chairman and members of the Committee. On 
behalf of the over 400 commercial citrus growers in Texas, I 
want to express my deep appreciation for convening this hearing 
today to learn more about the challenges facing the U.S. citrus 
industry and all our many small, family-owned, growers.

    My name is Dale Murden. My family and I currently grow 
citrus and raise cattle on 250 acres near my hometown of 
Harlingen, Texas. In addition to being President of Texas 
Citrus Mutual, I am also a current member of the Board of 
Directors of the Texas Farm Bureau, Texas Grain Sorghum 
Association and Delta Lake Irrigation District.

    The Texas Citrus Industry is comprised of almost 27,000 
acres across a three-county area in the Lower Rio Grande 
Valley. Together, our growers produce more than 9 million 
cartons of fresh grapefruit and oranges each year and another 5 
million cartons of juice fruit.

    Texas is the third largest citrus producing state behind 
California and Florida. The Texas fresh commercial fruit market 
is valued at $100 million and the juice market is valued at $8 
million. We also have close to 1,000 acres dedicated solely to 
organic production, which is valued at $5 million. Texas A & M 
University economists estimate that the total business activity 
supporting Texas citrus production is almost $200 million 
annually. I know this pales in comparison to my larger 
counterparts...but to my fellow growers, it's worth fighting 
for.

    Currently, the industry employs up to 3,000 workers in a 
normal producing year, which culminates with a harvesting 
period from October to May.

    In my own small operation, my family and I supply all the 
labor except in extreme cases when weather or pest and disease 
presence dictate otherwise.

    My testimony today will focus on two critical and pressing 
issues facing growers in the Rio Grande Valley; I will discuss 
the potential economic devastation due to the invasion of the 
Mexican Fruit Fly from south of the border, as well as the 
rampant spread of Huanglongbing (also known as HLB or Citrus 
Greening), a disease that is capable of wiping out the entire 
US citrus production unless we can find a cure.

    What sets Texas apart from my colleagues in California and 
Florida who are also facing many of the same issues is our 
proximity to Mexico and its porous border and the backyard 
citrus in our region. USDA has estimated that there are 
conservatively over 750,000 citrus trees in backyards and 
private homes Valley-wide. We all love our lemon and lime trees 
and are very proud we can grow them, but these trees pose a 
very significant threat to the commercial industry and, when 
left untreated, provide a safe harbor for fruit flies and the 
Asian Citrus Psyllid (ACP).

    The Mexican fruit fly--or MexFly--is a fly originally found 
in parts of Mexico and Central America that has now spread 
beyond the border into the lower Rio Grande Valley of Texas. 
The MexFly is especially problematic for oranges and 
grapefruit, which are extremely susceptible to infestation and 
economic losses resulting from direct damage caused by the 
larvae that feed on the fruit pulp. Since 1986, Texas has 
participated in a fruit fly control program headed by USDA-
APHIS, culminating in a multi-pronged initiative in 2007 to 
eradicate the fruit fly from Texas and the Mexican state of 
Tamaulipas. In 2012 we thought we had successfully eradicated 
the MexFly but recently--due to continued violence along the 
Texas-Mexico border, aging USDA rearing facilities and the 
untreated backyard citrus trees, the MexFly has been found once 
again in our region.

    The MexFly is not just an annoying pest--for hundreds of 
citrus growers in Texas, a discovery of a MexFly in your grove 
results in a full government quarantine of the immediate area, 
which means no fruit can be sold resulting in significant 
economic loss for the grower. For example, this year proved 
especially hard for one ``pick-your-own'' operation after a 
Mexican fruit fly was found in a neighboring back yard tree. 
The discovery triggered a quarantine and the growers was no 
longer able to harvest his crop for the year, leaving thousands 
of dollars of inventory on the trees with no hope for harvest. 
The problem is now reaching crisis levels, since January 2014, 
there have been fruit fly quarantine areas off and on in the 
entire citrus growing region of South Texas.

    The best solution we have for combating MexFly is a 
stronger, more effective sterile fly program run by USDA-APHIS. 
The agency needs to devote significant resources to upgrading 
sterile fly production facilities and, perhaps more 
importantly, they need to provide better management of the 
existing resources.

    While the Mexican fruit fly poses a real and immediate 
threat, the recent finds of HLB--or citrus greening--has 
growers of all sizes in south Texas extremely concerned. There 
is no know cure for this disease and we've learned from our 
friends in Florida that this disease is deadly serious...and 
means business.

    Greening was first discovered in a Texas grove in January 
of 2012. Three short years later, we have confirmed that 417 
residential trees and 846 commercial trees located in almost 
100 groves valley wide show signs of the disease. And with the 
extremely long latency period of this disease, it is unclear 
how many more trees have already been infected.

    What this has done to growers in terms of dollars is hard 
to quantify. When it was first discovered in Texas, we removed 
not only infected trees, but several of the surrounding trees 
as well. That translated to lost income, and with no 
replacement trees to plant, it also equated to a loss of future 
income as well.

    Today, positive HLB finds have become so widespread, that 
most growers have discontinued tree removal. As such, it has 
quickly become a numbers game, and a point of diminishing 
returns that keeps spreading throughout the industry as fast as 
this disease can infect neighboring trees.

    In a desperate attempt to mitigate the effects of HLB, most 
growers have initiated psyllid spray programs to try to slow 
the spread of infestation until a cure can be found. This 
strategy is in addition to our regular care programs and has 
increased our grove care expenses by almost $400 per acre or 
22%. I haven't had a 3% cost of living increase in years, much 
less 22%.

    Even with all of these preventative strategies in place, 
Texas still has pockets of untreated groves, as well as the 
backyard trees, that continue to pose a significant threat to 
the industry. For these reasons, Texas recently created a 
special entity under the Department of Agriculture to 
specifically address HLB through a program that is being 
tailored after the boll weevil eradication program in the 
state. The industry plans to hold a referendum to assess where 
we stand on a valley-wide psyllid suppression program, which 
would impose additional costs on the many growers--large and 
small--throughout the Valley. Some estimates have projected 
program costs as high as an additional $80-$100 per acre.

    Federal investments in HLB research and ACP eradication 
programs are critical to the survivability of the citrus 
industry in the U.S., as such, we have requested full funding 
under two high priority citrus programs: the Citrus Health 
Response Program (CHRP) and the Huanglongbing Multi-Agency 
Coordination (MAC).

    The Citrus Health Response Program is a critical source of 
funding for the exclusion and eradication activities associated 
with the Asian Citrus Psyllid. The funds have been used in 
partnership with other state agriculture departments and citrus 
industry groups to research, survey and combat both the pest 
and disease.

    The Huanglongbing Multi-Agency Coordination was started in 
2014 when Congress authorized funding to develop solutions for 
the control and eradication of ACP and HLB. It is vital that 
this current funding be continued to ensure scarce federal, 
state and industry funds are allocated to those projects with 
the highest likelihood of developing a cure for this 
devastating disease without unnecessary setbacks or duplication 
of efforts.

    I'd like to thank you for attention today on these dire 
issues. In short, the United States citrus industry as you know 
it, is in extreme trouble. We are fighting to preserve our very 
way of life and are doing everything in our power to prevent 
total eradication of an essential U.S. industry. With agency 
collaboration and much needed support, it is our hope that we 
will soon be able to eradicate ACP and HLB from our vocabulary 
entirely.

    Thank you again, Mr. Chairman, for holding this important 
hearing and for all that you and the Committee are doing. We 
look forward to working with you in the future.
    Squeezed: Current Challenges for Small Citrus Operations

                            Hearing

                         June 11, 2015

         Subcommittee on Agriculture, Energy and Trade

                 U.S. House of Representatives

             Statement of Dr. Michael E. Rogers \1\
---------------------------------------------------------------------------

    \1\ <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="660b140114152613000a48030213">[email&#160;protected]</a>; 863-956-5897; www.crec.ifas.ufl.edu
---------------------------------------------------------------------------

 Interim Director and Associate Professor, Citrus Research and 
                       Education Center,

          Institute of Food and Agricultural Sciences,

                     University of Florida,

          700 Experiment Station Road, Lake Alfred, FL

    Chairman Curbelo, Ranking Member Meng, and members of the 
subcommittee, thank you for the opportunity to speak to you 
today about citrus greening, the impact this disease is having 
on citrus production, and the prospects for potential research-
based solutions.

    My name is Michael Rogers and I am an associate professor 
of entomology at the University of Florida where I serve as 
interim director of the Citrus Research and Education Center 
(CREC) near Orlando, the largest research center in the world 
dedicated to one crop, Citrus! The mission of the CREC is 
``...to discover and deliver innovative solutions that empower 
citrus and other agricultural interests to conduct responsible 
and profitable business. CREC fosters scientific excellence and 
efficient use of resources.'' With that charge, scientists from 
CREC and throughout UF/IFAS, along with researchers from other 
citrus producing states and countries, are collaborating to 
solve the most devastating disease of citrus worldwide, citrus 
greening disease.

    Also referred to by its Chinese name Huanglongbind (HLB), 
citrus greening was first documented in Asian countries in the 
late 1800's. Prior to the discovery of citrus greening in 
Florida in 2005, very little was known about this disease and 
that lack of knowledge made commercial citrus production 
economically unfeasible in those countries where the disease 
was present. In the absence of citrus greening disease, the 
state of Florida and the country of Brazil were the global 
leaders in orange juice production.

    Citrus greening disease is caused by a bacterium that is 
spread tree-to-tree by an insect known as the Asian citrus 
psyllid. When a psyllid carrying the bacteria feeds on a citrus 
tree, it ``injects'' the disease-causing bacteria into the 
vascular system of the plant. The bacteria then move throughout 
the plant, increasing in number, over time destroying the 
vascular system in both the above ground parts of the tree and 
the below ground root system that supports overall tree health. 
As the vascular system is weakened, the health of the tree 
begins to decline with the trees dying a slow death. Long 
before the trees completely succumb to the disease, citrus 
fruit production is severely impacted. Much of the fruit on 
diseased trees is reduced in size and quality, making them 
unusable for processing for orange juice or for sale as fresh 
fruit. After a tree has been infected for several years, the 
continued deterioration of the root system results in trees 
being unable to hold most of their fruit load and the 
potentially harvestable fruit that growers have spend thousands 
of dollars per acre growing, drops to the ground just before 
its ready to be picked. Currently, this is the situation for 
the majority of the mature fruit-bearing citrus groves in 
Florida. As a direct result of greening disease, the 2015 all 
orange harvest is predicted to be 96.4 million boxes of fruit 
\2\. This is down from 240 million in 2003 and is the smallest 
Florida orange crop since 1966.
---------------------------------------------------------------------------
    \2\ Citrus Forecast (May 2015), USDA-National Agricultural 
Statistics Service. http://www.nass.usda.gov/
Statistics<INF>--</INF>by<INF>--</INF>State/Florida/Publications/
Citrus/cit/2014-15/cit0515.pdf

    When citrus greening disease was first found in Florida in 
2005, management programs were adopted by growers to slow the 
spread of the disease until a sustainable long-term solution 
could be developed. The approach implemented to manage greening 
included use of insecticides to control the insect which 
spreads the disease, removing infected trees from groves 
because they served as a source for continued spread of the 
bacteria, and where trees were removed, replanting with trees 
grown in certified disease-free nurseries. Adoption of these 
practices increased the production costs for Florida citrus 
---------------------------------------------------------------------------
growers from $800 per acre to more than $2,000 per acre.

    By August 2008, citrus greening disease was confirmed to be 
present in every county located within the primary citrus 
growing region of Florida. Since that time, the disease has 
spread to very commercial citrus grove in the state, infecting 
most, if not all, of the fruit-bearing trees at present. One of 
the difficulties in managing this disease is the fact that it 
can take several years from the time a tree is infected until 
visible symptoms are apparent. It's likely that much of the 
disease found by 2008 occurred before citrus greening was 
confirmed to be present in Florida and any management programs 
were implemented.

    Now that most of the citrus trees in Florida have greening 
disease, growers have made changes to their management programs 
in attempts to remain in business as long as possible. Removal 
of diseased trees is no longer a viable option in most 
situations. Instead, growers are attempting to maintain the 
health of these infected trees using improved fertilization 
programs. These improved fertilization programs appear at best 
to only slow the rate of tree death, but do little to prevent 
fruit drop prior to harvest.

    Since the discovery of greening in Florida ten years ago, 
all citrus research programs in Florida, along with citrus 
researchers from other states and countries, have shifted their 
emphasis to finding a solution to citrus greening disease. 
Important research-based advances have been made that have 
provided growers with the tools needed to slow the rate of 
spread of this disease and remain in business to date. These 
advances include improved efficacy and cost-effectiveness of 
psyllid management programs, and improvements in tree care 
through adjustments made to plant nutritional and root health 
programs. However, simply put, these improvements are just a 
bandage on a gaping wound. They won't solve the problem, but 
instead serve to slow the bleeding.

    One question I am constantly asked is ``Why is it taking so 
long to find a solution to greening?'' The reason is this is a 
very tough disease to work with. Our research began with 
minimal accurate information on this disease. This is 
complicated by the fact that the bacterium that causes the 
disease had not and has still not been grown in culture in the 
laboratory to date. The inability to grow the bacteria in the 
lab greatly limits the research that can be done to find a 
cure. Furthermore, a thorough understanding of how the disease 
develops, from start to finish, is required to develop ``the 
cure.'' In the case of citrus greening, this is a disease of a 
perennial crop that takes years to progress through the disease 
cycle. Compared to an annual crop such as wheat or corn where 
you can study a complete disease cycle in a matter of months, 
studying the disease cycle in a citrus tree takes years. This 
increases the time to get results and requires lots of funding.

    Despite these challenges, scientists have made tremendous 
advances in our understanding and management of this disease. 
We have learned more in the past 10 years than in the previous 
100+ years this disease has been present in other countries. It 
should be acknowledged that the Florida citrus growers deserve 
the credit for these accomplishments that would not have been 
possible without the $90+ million in research funds they 
provided over the past 10 years through self-imposed taxes on 
their production.

    The most important scientific breakthroughs that hold 
promise for developing a long term solution to greening disease 
are molecular based. The genomes of the psyllid, the greening 
bacterium, and citrus itself have all been sequenced. With this 
information in hand, researchers are now able to target 
specific genes required for survival of both the insect and the 
disease-causing bacterium. For example, researchers have used 
such approaches to successfully control psyllids by interfering 
with their ability to fly and feed on plants, thus preventing 
the insect's ability to spread the disease. Genes have also 
been identified that could potentially provide resistance to 
the disease-causing bacteria. Citrus trees with these genes for 
resistance are being tested in field trials and the results to 
date looking promising.

    While there are many potential research solutions being 
developed that hold promise, putting that ultimate answer in 
the hand of growers is still years away. If we had a citrus 
tree today that we knew for certain was resistant to this 
disease, it would take 2-3 years to scale-up commercial nursery 
production of that resistant tree for purchase by growers. If 
the resistant plant happens to be a GMO, the regulatory red 
tape adds even more time to make that a reality. Once a grower 
is able to plant trees resistant to the disease, it will take 
at least 4 years for those trees to being producing a 
harvestable crop, and additional years beyond that time to 
recover the costs required grow the trees to that plant. This 
is a discouraging prospect, especially for the small citrus 
grower who is currently struggling to stay in business.

    However, research that has been conducted since greening 
arrived in Florida is now providing exciting new potential 
solutions for living with this disease in the short term while 
work continues on the potential long-term solutions that hold 
promise. Through the efforts of plant breeders at the CREC and 
the USDA, new citrus rootstocks and scions (hereafter in this 
testimony referred to collectively as varieties) have been 
developed that appear to be tolerant to citrus greening 
disease. These plants are described as tolerant because while 
they may become infected with the greening bacterium, field 
studies have shown they will survive and produce fruit for a 
longer period of time in the presence of greening compared to 
varieties previously grown in Florida. To date, 18 of these 
potentially tolerant varieties have been made commercially 
available for growers to use in replanting their groves.

    Should those replanted trees become infected with greening, 
a new approach to rehabilitate diseased trees has been 
developed. Known as thermal therapy \3\, researchers at the 
CREC have designed machines to rapidly cover trees in the field 
and apply steam to kill the bacterium in the above ground parts 
tree. While the steam treatment does not completely cure the 
disease, it extends the life of trees, buying additional years 
of positive crop yields for the grower.
---------------------------------------------------------------------------
    \3\ http://bit.ly/citrussteaming

    Progress has been made developing other tools that could 
soon be used in the near-term for managing greening disease. 
Examples include the development of compounds that can be 
applied to the threes to kill the bacteria in the plant. 
Numerous bactericidal compounds have been screened in 
laboratory and greenhouse trials. The most promising candidate 
compounds are now being tested in field trials as possible 
tools that can be used by growers to reduce or eliminate the 
---------------------------------------------------------------------------
effects of the disease.

    As previously mentioned, the majority of fruit bearing 
trees that are providing income to Florida growers are infected 
with citrus greening disease and have been for a number of 
years. As diseased trees are removed, growers must replant new 
trees in their groves to maintain continuity of production 
until better solutions are developed. The availability of 
tolerant varieties, thermal therapy, and other short term 
solutions under development will play an important role in 
providing that needed continuity of production. For the grower, 
time is not on their side. Growers are in desperate need of 
assistance to maintain their operations. Citrus research 
programs are also being negatively affected by the reduction in 
fruit yields. The research funds provided by the self-imposed 
grower tax are drying up, thus threatening to impede the 
progress of the promising research that must be continued to 
provide solutions for this disease.

    Fortunately, the availability of new federal research 
funds, specifically the USDA-SCRI and USDA-APHIS-MAC programs, 
are providing additional support for research on citrus 
greening. A sincere thank you to those who helped provide this 
needed funding through the Farm Bill. A large majority of the 
funding provided this past year went to support research 
projects at the CREC. While these funds will provide needed 
support for some very promising research projects, there are 
still gaps in funding that exist for many promising areas of 
research previously funded by the citrus grower generated tax.

    Your financial support for further research is crucial for 
the future of citrus growers not only in Florida, but 
throughout the entire county. Land-grant universities in every 
state are dedicated to serving the public, and federal research 
dollars are crucial for universities to continue their research 
to benefit economic development.

    I appreciate the opportunity to address the committee and 
bring to your attention these important issues facing the 
citrus industry. I extend an invitation to any of the members 
who are interested, to please contact me to arrange a visit to 
the CREC to witness first hand the effects of this disease and 
the research underway to develop solutions to this problem.

    That concludes my formal statement and I am happy to answer 
any questions you may have.

    Thank you.

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
